<html>
<title> - THE COSTS OF CLIMATE CHANGE: RISKS TO THE U.S. ECONOMY AND THE FEDERAL BUDGET</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 THE COSTS OF CLIMATE CHANGE: RISKS TO
                THE U.S. ECONOMY AND THE FEDERAL BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

            HEARING HELD IN WASHINGTON, D.C., JUNE 11, 2019
                               __________

                           Serial No. 116-10
                               __________

           Printed for the use of the Committee on the Budget
           
           
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]           
           

                       Available on the Internet:
                            www.govinfo.gov
                            
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-609                    WASHINGTON : 2020                               
                            
                            
                            
                            
                            
                            
                        COMMITTEE ON THE BUDGET

                  JOHN A. YARMUTH, Kentucky, Chairman
SETH MOULTON, Massachusetts,         STEVE WOMACK, Arkansas,
  Vice Chairman                        Ranking Member
HAKEEM S. JEFFRIES, New York         ROB WOODALL, Georgia
BRIAN HIGGINS, New York              BILL JOHNSON, Ohio,
BRENDAN F. BOYLE, Pennsylvania         Vice Ranking Member
RO KHANNA, California                JASON SMITH, Missouri
ROSA L. DELAURO, Connecticut         BILL FLORES, Texas
LLOYD DOGGETT, Texas                 GEORGE HOLDING, North Carolina
DAVID E. PRICE, North Carolina       CHRIS STEWART, Utah
JANICE D. SCHAKOWSKY, Illinois       RALPH NORMAN, South Carolina
DANIEL T. KILDEE, Michigan           CHIP ROY, Texas
JIMMY PANETTA, California            DANIEL MEUSER, Pennsylvania
JOSEPH D. MORELLE, New York          WILLIAM R. TIMMONS IV, South 
STEVEN HORSFORD, Nevada                  Carolina
ROBERT C. ``BOBBY'' SCOTT, Virginia  DAN CRENSHAW, Texas
SHEILA JACKSON LEE, Texas            KEVIN HERN, Oklahoma
BARBARA LEE, California              TIM BURCHETT, Tennessee
PRAMILA JAYAPAL, Washington
ILHAN OMAR, Minnesota
ALBIO SIRES, New Jersey
SCOTT H. PETERS, California
JIM COOPER, Tennessee

                           Professional Staff

                      Ellen Balis, Staff Director
                  Dan Keniry, Minority Staff Director


                                CONTENTS

                                                                   Page
Hearing held in Washington, D.C., June 11, 2019..................     1

    Hon. John A. Yarmuth, Chairman, Committee on the Budget......     1
        Prepared statement of....................................     4
    Hon. Bill Johnson, Vice Ranking Member, Committee on the 
      Budget.....................................................     6
        Prepared statement of....................................    10
    Hon. Steve Womack, Ranking Member, Committee on the Budget, 
      statement submitted for the record.........................     7
    Katharine Hayhoe, Ph.D., Professor, Department of Political 
      Science, and Director of the Climate Science Center, Texas 
      Tech.......................................................    12
        Prepared statement of....................................    15
    Solomon Hsiang, Ph.D., Chancellor's Professor of Public 
      Policy, University of California, Berkley, and Gloria and 
      Richard Kushel Visiting Scholar at Stanford University.....    29
        Prepared statement of....................................    31
    J. Alfredo Gomez, Director, Natural Resources and 
      Environment, U.S. Government Accountability Office.........    42
        Prepared statement of....................................    44
    Oren Cass, Senior Fellow, Manhattan Institute................    65
        Prepared statement and report of.........................    76
    Hon. Pramila Jayapal, Member, Committee on the Budget, 
      testimonies submitted for the record.......................   111
        Letters submitted for the record.........................   137
    Hon. Sheila Jackson Lee, Member, Committee on the Budget, 
      statement submitted for the record.........................   173
    Hon. Steve Womack, Ranking Member, Committee on the Budget, 
      questions submitted for the record.........................   179
    Hon. Robert C. ``Bobby'' Scott, Member, Committee on the 
      Budget, questions submitted for the record.................   181
    Answers to questions submitted for the record................   182

 
                      THE COSTS OF CLIMATE CHANGE:
                       RISKS TO THE U.S. ECONOMY
                         AND THE FEDERAL BUDGET

                              ----------                              


                         TUESDAY, JUNE 11, 2019

                          House of Representatives,
                                   Committee on the Budget,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:00 a.m., in 
Room 210, Cannon House Office Building, Hon. John A. Yarmuth 
[Chairman of the Committee] presiding.
    Present: Representatives Yarmuth, Moulton, Doggett, 
Schakowsky, Kildee, Panetta, Morelle, Horsford, Jackson Lee, 
Jayapal, Omar, Peters, Cooper; Woodall, Johnson, Smith, Flores, 
Holding, Stewart, Norman, Roy, Meuser, Timmons, Crenshaw, Hern, 
and Burchett.
    Chairman Yarmuth. Good morning and welcome to the Budget 
Committee's hearing on The Costs of Climate Change: Risks to 
the U.S. Economy and the Federal Budget. I want to welcome our 
witnesses here with us today.
    This morning we will be hearing from Dr. Katharine Hayhoe, 
professor of political science and director of the Climate 
Science Center at Texas Tech University; Dr. Solomon Hsiang, 
professor of public policy at UC Berkeley, and a visiting 
scholar at Stanford; Mr. Alfredo Gomez, director of the natural 
resources and environment team at GAO; and Mr. Oren Cass, 
senior fellow at the Manhattan Institute.
    We will now begin with opening statements, and I yield 
myself five minutes.
    Good morning. As we said, this Committee has come to order. 
I would like to welcome everyone to the Budget Committee's 
hearing on the impacts of climate change on our nation's 
economy and federal budget. I would like to thank our witnesses 
also for joining us today.
    This is a hearing on the future of the country, covering a 
topic that we cannot afford to ignore. Americans are already 
feeling the effects of climate change: homes have been blown 
away in hurricanes that are increasing in intensity, or lost to 
wildfires that are spreading farther and taking longer to 
extinguish. Our farmers have endured prolonged droughts, while 
some states have experienced historic flooding.
    The Intergovernmental Panel on Climate Change's October 
report warned that, if greenhouse gas emissions continue at the 
current rate, our atmosphere will continue to warm with 
dangerous consequences. In addition to more destructive storms, 
wildfires, and droughts, we will experience increasingly acidic 
oceans, a loss of wildlife, reduced air quality, increased 
disease exposure, and a drastic decrease in crop production, 
among other disasters that could permanently reshape our way of 
life.
    Climate change is an environmental issue, it is a public 
health issue, it is a national security issue. And, as we will 
talk about today, it is increasingly an economic and fiscal 
issue. It is my hope that, when faced with the data and 
testimony of our esteemed witnesses, we can separate opinion 
from fact, and acknowledge that, as a governing body, we must 
plan for the consequences of a changing climate if we are to 
avoid future catastrophe.
    Last November the fourth National Climate Assessment Report 
was released, and it painted a dire picture for our future. It 
concluded that not only is the evidence of human-caused climate 
change overwhelming, its consequences are intensifying. If no 
mitigating action is taken, climate change will increasingly 
wreak havoc on the U.S. economy, human health, and the 
environment.
    For example, between 2005 and 2014 we spent an average of 
$36 billion annually responding to extreme weather and fire 
events. But that level of spending looks tame, compared to 
where we are headed. For 2018 alone, Congress appropriated more 
than $130 billion for disaster-related purposes. And all 
indications are that these costs will continue to dramatically 
rise in the years and decades ahead, if no action is taken.
    Already, billions of dollars of federal property and 
approximately half of all U.S. military sites are threatened by 
climate change. That is not my assessment; that is from the 
Pentagon's Initial Vulnerability Assessment Report on climate-
related risks to DoD infrastructure. Major assessments from the 
Climate Impact Lab and EPA's Climate Change Impacts and Risk 
Analysis Project also concluded that, if we continue business 
as usual with high emissions and limited resilience efforts, 
annual losses across multiple sectors of our economy could 
exceed $500 billion, or roughly 3 percent of national GDP, by 
the end of the century.
    The global investment management company BlackRock 
estimates that the median risk of commercial properties being 
hit by a category four or five hurricane has increased by more 
than 135 percent since 1980. This increase could further rise 
to 275 percent by 2050, with major implications for commercial 
mortgage-backed securities. They also add that ``extreme 
weather events pose growing risks for the credit worthiness of 
state and local issuers in the $3.8 trillion dollar U.S. 
municipal bond market.''
    The only people who fail to understand the seriousness of 
climate change are the Trump Administration and some of our 
Republican colleagues. If they are not moved by environmental, 
health, and security consequences, I hope the economic costs 
and the impact on the federal budget will get their attention, 
because we cannot afford to wait for them to catch up. We can't 
afford to be the only country that is not part of the historic 
Paris climate agreement. We can't afford to have an 
Administration that continues to deny climate change, and 
handicap the agencies and programs responsible for responding 
to it, making the problem far worse and, ultimately, more 
costly.
    It is our responsibility, as the Budget Committee, to 
review the issues that threaten our fiscal health and our 
constituents. Without serious action to address climate change, 
federal spending will continue to rise on everything from 
federal disaster response to flood insurance, crop insurance, 
and federal facility preservation and repairs, not to mention 
the increased public health costs.
    I hope today's hearing will make clear that we must rejoin 
our global partners in tackling the threat of climate change, 
and commit to substantial reductions in carbon pollution, 
meaningful investments in clean energy, and policies that 
strengthen our communities and prioritize the health and safety 
of current and future generations.
    [The prepared statement of Chairman Yarmuth follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Yarmuth. And now--just made it under my five 
minutes.
    Anyway, I now yield to the Ranking Member, Mr. Johnson, for 
his opening statement.
    Mr. Johnson. Well, thank you, Chairman Yarmuth. And I am 
going to try and fill some really big shoes, and attempt to 
give an opening statement on behalf of our Ranking Member, who 
is in Appropriations this morning.
    But I would first like to request unanimous consent that 
his prepared opening statement be submitted for the record.
    Chairman Yarmuth. Without objection.
    [The prepared statement of Steve Womack follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Johnson. As you have heard, the title of today's 
hearing is, ``The Cost of Climate Change: Risks to the U.S. 
Economy and the Federal Budget.'' But we can't have a hearing 
about climate change without taking a detailed look at the 
favored proposal among our colleagues on the left: The Green 
New Deal.
    Currently, the Green New Deal has 93 cosponsors, about a 
dozen of whom serve on the Budget Committee. Following our 
hearing last month on Medicare for All, this is our second 
hearing featuring a central plank of the progressive agenda. I 
will be curious to learn what the focus will be at our next 
hearing if we continue down this path.
    We are supposed to be the Committee of fiscal discipline, 
the Committee that is responsible for managing and addressing 
our nation's debt. But instead of talking about a budget, 
something Democrats were unable or unwilling to produce, we are 
here to discuss a $93 trillion proposal that has been hailed on 
the left as a massive transformation of our society. 
``Transformation,'' in this case, should be replaced with 
``upheaval'' to make the description more accurate.
    The proposal has been billed as the cure to our 
environmental challenges. In reality, it would dump tens of 
trillions of federal dollars into new programs and mandates on 
families, businesses, states, and localities that will increase 
energy costs, raise taxes, eliminate jobs, and fail to actually 
address climate change.
    The U.S. has been a leader in reducing greenhouse gas 
emissions, but we cannot effectively address climate change 
alone. This is a global issue. China and India accounted for 
half the increase in global emissions in 2017, the same year 
that U.S. carbon emissions were the lowest they have been since 
1992.
    Congress should focus on policies that encourage research 
and development of all sources of energy, such as carbon 
capture and sequestration, energy storage, small modular 
nuclear reactors, or hydropower, to name a few. We should break 
down regulatory barriers to innovation and promote competition 
with the goal of making clean energy more affordable, 
accessible, and reliable, creating jobs, and growing the 
economy. In doing so, America will continue to lead other 
countries in reducing our impact on our climate, without adding 
to our nation's debt and disrupting the lives of American 
workers and families.
    Innovation is the cornerstone of America. It is what we do 
best. But more government interference and less freedom for 
Americans is the wrong policy to get the results we want.
    I do want to add that it is not entirely fair to say that 
there are no ideas on how to pay for the astronomical cost of 
the Green New Deal. The concept of modern monetary theory has 
been cited as a solution to all our debt problems because, so 
the theory goes, the government can just print more money to 
pay our bills. Now, I am skeptical of that claim, but I 
understand that Chairman Yarmuth made some news on this topic 
in an interview at the Peterson Foundation Fiscal Summit this 
morning. I am hopeful a hearing on this theory is on the 
horizon.
    Thank you again Mr. Chairman, and I yield back.
    [The prepared statement of Bill Johnson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Mr. Johnson for your opening 
statement. And I need to apologize to anyone here who is under 
the impression that this was about--this hearing was about the 
Green New Deal. I know the Republicans put out notices that we 
were going to have a hearing on the Green New Deal. There are 
11 Committees that have jurisdiction over that piece of 
legislation; we are not one of them.
    As I said, this hearing is about the economic impact of 
climate change, and I am very, very excited that we have four 
very, very knowledgeable----
    Mr. Johnson. Would the Chairman yield?
    Chairman Yarmuth. Certainly.
    Mr. Johnson. Mr. Chairman, how can we have a discussion, a 
serious discussion about climate change on this Committee, 
without addressing the primary plank of the platform that you 
and your colleagues have offered, the Green New Deal, to 
resolve climate change?
    Chairman Yarmuth. Well, as you mentioned, the Green New 
Deal doesn't even have a majority of the caucus as cosponsors. 
But there are hundreds of proposals to deal with climate 
change, and I think a lot of them are very meritorious and we 
ought to consider them. We ought to start by agreeing that 
there is a problem here, and we need to act responsibly, as a 
Congress, to address it.
    But now I would like to introduce our witnesses. Once 
again, each of you will have five minutes to present your 
testimony. Your written statements have become--been made a 
part of the record.
    So, as--I first get to introduce Dr. Hayhoe.
    And Dr. Hayhoe, you are recognized for five minutes.

STATEMENT OF KATHARINE HAYHOE, PH.D., PROFESSOR, DEPARTMENT OF 
POLITICAL SCIENCE, AND DIRECTOR OF THE CLIMATE SCIENCE CENTER, 
 TEXAS TECH; SOLOMON HSIANG, PH.D., CHANCELLOR'S PROFESSOR OF 
 PUBLIC POLICY, UNIVERSITY OF CALIFORNIA, BERKLEY, AND GLORIA 
AND RICHARD KUSHEL VISITING SCHOLAR AT STANFORD UNIVERSITY; J. 
  ALFREDO GOMEZ, DIRECTOR, NATURAL RESOURCES AND ENVIRONMENT, 
 U.S. GOVERNMENT ACCOUNTABILITY OFFICE; AND OREN CASS, SENIOR 
                  FELLOW, MANHATTAN INSTITUTE

              STATEMENT OF KATHARINE HAYHOE, PH.D.

    Dr. Hayhoe. Thank you, Chairman Yarmuth, Member Johnson, 
and Committee Members for inviting me to speak today.
    My name is Katharine Hayhoe. I am an atmospheric--or 
climate--scientist, and a professor at Texas Tech University. 
My research focuses on understanding what climate change means 
to us in the places where we live. I also spend a lot of time 
talking about climate change because, according to the Yale 
Program on Climate Communication, while 70 percent of us in the 
U.S. agree climate is changing, and it will harm plants, 
animals, and future generations, only 41 percent of us believe 
it will affect us personally.
    But that is not true. The message of the fourth National 
U.S. Climate Assessment, or the NCA, is crystal clear. Climate 
change is already affecting every region of the U.S., and 
nearly every sector, including our ag, infrastructure, water, 
and more. Climate change is not just an environmental issue; it 
is a health issue, a resource issue, and, most relevant to this 
Committee, an economic issue, as well.
    So my testimony today highlights the findings of the NCA 
across the U.S. And, of course, I am speaking on my own behalf, 
based on my expertise in climate impacts and my role as a lead 
author of the assessment. This testimony is not a product of 
the NCA process, the USGCRP, or Texas Tech University.
    Before I begin our brief tour on how climate change is 
already affecting the U.S., I want to unequivocally state that, 
contrary to what you may have heard, NCA is not based on a so-
called ``most extreme scenario.'' It looks at a range of future 
scenarios, from higher ones, where we continue to depend on 
fossil fuels as the world does today, to scenarios so low that 
we only have a few years left before that ship sails and they 
are off the table.
    Which of these is most likely? Over the last two decades it 
is clear that the observed increase in global carbon emissions 
has been consistent with the higher scenarios. Looking to the 
future, though, the question of which scenario is more likely 
is not one that the science can answer. Instead, the answer is 
up to us.
    As NCA concludes, climate change beyond the next few 
decades will depend primarily on the amount of heat trapping or 
greenhouse gases, especially carbon dioxide, emitted globally. 
We humans are in the driver's seat, and we are conducting an 
unprecedented experiment with the only home we have.
    Returning to our main theme, though, it is clear that 
climate change is no longer an issue that can be put on the 
back burner for future generations. It is already affecting us 
right now in the places where we live. And one of the most 
visible ways it is doing so is by exacerbating many of our 
naturally-occurring weather and climate risks.
    For example, where I live in Texas, hurricanes are nothing 
new. They are not getting more frequent, but they are 
intensifying faster on average, and getting stronger, bigger, 
and slower. It is estimated that between 20 to nearly 40 
percent of the rain that fell during Hurricane Harvey, and a 
significant share of the over $125 billion worth of damage it 
caused, was because of a warmer climate.
    Thanks to sea level rise, sunny-day flooding is already 
affecting property values in coastal cities like Miami. It is 
estimated by one study that, by the end of the century, homes 
and commercial properties across the U.S. worth over $1 
trillion could be at risk.
    In the northeast and the Midwest, heavy precipitation is 
increasing. When the fields are too wet, farmers have to delay 
their planting by weeks, as happened this very year. Flood risk 
is also increasing. In Iowa, for example, what used to be 
considered 500-year floods just 30 years ago are now 100-year 
floods.
    Warmer temperatures are also helping invasive species 
spread northward. In Arkansas, for example, herbicide-resistant 
Palmer amaranth, known as pigweed, has been called the greatest 
pest facing cotton and soybean producers today.
    In the western U.S. the number of wildfires is not 
increasing, but they are burning twice the area, thanks to 
climate change. In addition to destroying homes and 
infrastructure, just this past year PG&E, California's largest 
utility, sited $30 billion worth of liabilities due to wildfire 
in their bankruptcy filing.
    Many more details are available in my written deposition 
and, of course, in the NCA itself. But the bottom line is this: 
We care about a changing climate because it is loading the 
natural weather dice against us. It is taking many of our 
naturally-occurring risks, and making them worse in ways that 
affect us here and now. We are already starting to adapt, but--
this is a very important qualifier--we are not adapting fast 
enough. And the further and faster climate changes, the more 
difficult and expensive--and, in some cases, ultimately 
impossible--it may be to do so.
    That is why it is so important to prepare, to build 
resilience to the risks we can't avoid, and to reduce our 
emissions of heat-trapping gases to avoid the risks that we 
can. The NCA sounds the warning, looking ahead down that road 
to provide the information that we need to make the good 
decisions that will ensure a safe future for ourselves, our 
families, our communities, and us all.
    Thank you.
    [The prepared statement of Katharine Hayhoe follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you for your testimony.
    I now yield five minutes to Dr. Hsiang.

               STATEMENT OF SOLOMON HSIANG, PH.D.

    Dr. Hsiang. Thank you, Chairman Yarmouth, Ranking Member 
Womack, and Members of the Committee for inviting me to speak 
today.
    My name is Solomon Hsiang, and I am the chancellor's 
professor of public policy at the University of California 
Berkeley, and currently a visiting scholar at Stanford. I was 
trained in both economics and climate physics at Columbia, MIT, 
and Princeton. My research focuses on the use of econometrics 
to measure the effect of the climate on the economy.
    The last decade has seen dramatic advances in our 
understanding of the economic value of the climate. Crucially, 
we are now able to use real-world data to quantify how changes 
in the climate cause changes in the economy. This means that, 
in addition to being able to project how unmitigated emission 
of greenhouse gases will cause the physical climate to change, 
we now also can estimate the subsequent effect that these 
changes are likely to have on the livelihoods of Americans.
    Although, as with any emerging research field, there are 
large uncertainties, and much work remains to be done. 
Nonetheless, I would like to describe to you seven key insights 
from this field regarding future risks if past emission trends 
continue unabated.
    First, climate change is likely to have substantial 
negative impact on the U.S. economy. Expected damages are on 
the scale of trillions of dollars, although there remains 
uncertainty in these numbers. For an example, in a detailed 
analysis of county-level productivity, a colleague at 
University of Illinois and I estimated that the direct thermal 
effects alone would likely reduce incomes nationwide over the 
next 80 years, a loss valued at roughly $5 to $10 trillion in 
net present value. In another analysis a colleague from the 
University of Chicago and I computed that losses from 
intensified hurricanes were valued at around $900 billion. 
Importantly, these numbers are not a complete accounting of 
impacts, and other notable studies report larger losses.
    Second, extreme weather events are short-lived, but their 
economic impact is long-lasting. Hurricanes, floods, droughts, 
and fires destroy assets that took communities years to build. 
Rebuilding then diverts resources away from new, productive 
investments that would have otherwise supported future growth. 
For example, a colleague at Rhodium Group and I estimated that 
Hurricane Maria set Puerto Rico back over two decades of 
progress, and research done at MIT indicates that communities 
in the Great Plains have still not fully recovered from the 
Dustbowl of the 1930s. As climate change makes extreme events 
more intense and frequent, we will spend more attention and 
more money replacing depreciated assets and repairing 
communities.
    Third, the nature and magnitude of projected costs differs 
between locations and industries. For example, extreme heat 
will impose large health, energy, and labor costs on the south; 
sea level rise and hurricanes will damage the Gulf Coast; and 
declining crop yields will transform the Plains and Midwest.
    Fourth, because low-income regions and individuals tend to 
be hurt more, climate change will widen existing economic 
inequality. For example, in a national analysis of many 
sectors, the poorest counties suffered median losses that were 
nine times larger than the richest.
    Fifth, many impacts of climate change will not be felt in 
the marketplace, but rather in homes where health, happiness, 
and freedom through violence will be affected. There are many 
examples of this. Mortality due to extreme heat is projected to 
rise dramatically. Increasingly, humid summers are projected to 
degrade happiness and sleep quality. Research from Harvard 
indicates that warming will likely elevate violent crime 
nationwide, producing over 180,000 sexual assaults and over 
22,000 murders across eight decades. Colleagues at Stanford and 
I estimate that warming will generate roughly 14,000 additional 
suicides in the next 30 years. Increasing exposure of pregnant 
mothers to extreme heat and cyclones will harm fetuses for 
their lifetime. These impacts do not easily convert to dollars 
and cents, but they merit attention.
    Sixth, populations across the country will try to adapt to 
climate at substantial cost. Some adaptations will transform 
jobs and lifestyles. Some will require constructing new 
defensive infrastructure, and some will involve abandoning 
communities and industries where opportunities have 
deteriorated. In all cases, these adaptations will come at real 
cost, since resources expended on coping cannot be invested 
elsewhere.
    Lastly, outside of the U.S., the global consequences of 
climate change are projected to be large and destabilizing. 
Unmitigated warming will likely slow global growth roughly a 
third of a percentage point, and reduce political stability 
throughout the tropics and subtropics.
    Together, these findings indicate that our climate is one 
of the nation's most important economic assets. We should 
manage it with the seriousness and clarity of thought that we 
would apply to managing any other asset that also generates 
trillions of dollars in value for the American people.
    Thank you.
    [The prepared statement of Solomon Hsiang follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you for your testimony.
    I now recognize Mr. Gomez for five minutes.

                 STATEMENT OF J. ALFREDO GOMEZ

    Mr. Gomez. Chairman Yarmouth, Mr. Johnson, and Members of 
the Committee, good morning, and I am pleased to be here today 
to discuss our work on how to limit the federal government's 
fiscal exposure by better managing climate change risks.
    This is an area that has been on our high-risk list since 
February 2013. The cost to recent weather disasters have shown 
us the need for planning for climate change risks and for 
investing in resilience. My statement today discusses several 
areas where the federal government faces fiscal exposure from 
climate change risks, the potential impacts on the federal 
budget, and how the federal government could reduce this 
exposure.
    So early this year we reported that the federal government 
faces fiscal exposure from climate change risks in several 
areas, including disaster aid; federal insurance programs; and 
federal property and land. The rising number of natural 
disasters and related federal assistance are a key source of 
federal fiscal exposure, and this exposure will likely continue 
to rise.
    Since 2005, federal funding for disaster assistance is at 
at least $450 billion. According to the U.S. Global Change 
Research Program, disaster costs are projected to increase as 
certain extreme weather events become more frequent and intense 
due to climate change.
    In addition, the National Flood Insurance Program and the 
Federal Crop Insurance Program are sources of federal fiscal 
exposure, due in part to the vulnerability of the insured 
property and crops to climate change.
    From 2013 to 2017, losses under these programs totaled 
$51.3 billion. The federal flood and crop insurance programs 
were not designed to generate sufficient funds to fully cover 
all losses and expenses, and need budget authority from 
Congress to operate.
    With regard to federal property, the federal government 
owns and operates hundreds of thousands of facilities, and 
manages millions of acres of land that could be affected by a 
changing climate, and represent a significant federal fiscal 
exposure. For example, the Department of Defense owns and 
operates domestic and overseas infrastructure, with an 
estimated replacement value of about one trillion.
    In September 2018 Hurricane Florence damaged Camp LeJeune 
and other Marine Corps facilities in North Carolina, resulting 
in a preliminary repair estimate of $3.6 billion. One month 
later, Hurricane Michael devastated Tyndall Air Force Base in 
Florida, resulting in preliminary repair estimates of $3 
billion.
    So, while the federal government faces fiscal exposure from 
climate change, it does not have certain information that is 
needed to understand the budgetary impacts of such exposure. 
For example, the federal budget does not account for disaster 
assistance provided by Congress or the long-term impacts of 
climate change on existing federal infrastructure and programs. 
Also, the Office of Management and Budget climate change 
funding reports do not include information on federal programs 
with significant fiscal exposure to climate change. A more 
complete understanding could help policymakers anticipate 
changes in future spending, and enhance control and oversight 
over federal resources.
    One way to reduce federal fiscal exposure is to reduce or 
eliminate long-term risks to people and property from natural 
hazards. For example, in September 2018 we reported that 
elevating homes and strengthening building codes prevented 
greater damages in Texas and Florida during the 2017 hurricane 
season. The federal government has made some limited 
investments in resilience. Also, Congress passed the Disaster 
Recovery Reform Act of 2018, which could enable additional 
improvements at the state and local level.
    However, the federal government lacks a strategic approach 
for identifying, prioritizing, and implementing investments for 
disaster resilience.
    In summary, the federal government could reduce its fiscal 
exposure to climate change by focusing and coordinating federal 
efforts. So we have made a total of 62 recommendations. As of 
December of last year 25 of these recommendations remain open. 
Some of these identified key government-wide efforts that are 
needed to help plan for and manage climate risks, and direct 
federal efforts toward common goals, such as improving 
resilience.
    For example, to make buildings and infrastructure more 
resilient, we recommended that the Department of Commerce 
convene federal agencies to provide standard-setting 
organizations with the best available forward-looking climate 
information to inform design standards and building codes.
    Chairman Yarmuth, Ranking Members, and Members of the 
Committee, thank you, that completes my statement.
    [The prepared statement of J. Alfredo Gomez follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Mr. Gomez.
    I now recognize Mr. Cass for five minutes.

                     STATEMENT OF OREN CASS

    Mr. Cass. Thank you, Chairman Yarmouth, Member Johnson, and 
all Members of the Committee, for inviting me to testify today.
    My written testimony discusses climate economics, estimates 
of climate costs, and appropriate policy responses. I would 
like to use my brief time here to provide a concrete 
illustration of one point in particular: the way in which cost 
estimates go astray when they fail to account for adaptation, 
meaning they model an implausible future in which human society 
takes no action to protect itself against the potential harms 
of a warming climate.
    I will describe one climate cost in particular, which is 
called extreme temperature mortality--or, in other words, 
people dying from very high or low temperatures. Both of the 
government's major synthesis reports, Dr. Hayhoe's National 
Climate Assessment and Mr. Gomez's GAO report, suggest that 
heat deaths will be one of the largest costs and, in some 
cases, the largest cost of climate change. Both rely on 
estimates from the same two studies: one from EPA's CIRA 
project, and one published by Dr. Hsiang and his colleagues. So 
let's take a look at those estimates.
    First, EPA's CIRA. The model here considers extreme heat, 
city by city. It takes each city's range of temperatures and 
defines the top 1 percent of low temperatures as extremely hot. 
Cities tend to experience elevated mortality on such days. So, 
for Pittsburgh in 2000, as you see illustrated here, a day with 
a low temperature above 71 degrees would count.
    Next, the study applies a projection of warming 
temperatures under climate change, but it does not update the 
threshold for a very hot day. Even as the climate warms, the 
study assumes that Pittsburgh will still react to every day 
with a low above 71 as extremely hot. The result is many more 
such days, as you see in the red compared to the blue, and an 
enormous increase in deaths.
    The result does not make sense. The three bars on the left 
here show the extreme temperature mortality from the study in 
2000 for some of the nation's hottest cities: Phoenix, Houston, 
and New Orleans. The three bars on the right show the projected 
mortality rate in 2100 from the study for some northern cities: 
New York, Detroit, and Pittsburgh. Those cities will not be as 
hot in 2100, as our southern cities are today, yet EPA claims 
people could be dying at a rate 50 to 75 times higher. The 
technical term for this is ``a bad model.'' Yet EPA, GAO, and 
the National Climate Assessment all reported uncritically.
    The second estimate comes from work by Dr. Hsiang and his 
colleagues published most recently in the journal, ``Science.'' 
The approach here is different, assuming that all places react 
the same way to extremely hot days. Because climate change will 
create the most and hottest days in the South, therefore, you 
see on the left side of the chart the dark red areas of much 
higher mortality in the South. The right side shows the study's 
total estimate of climate cost, also used by the National 
Climate Assessment. As temperatures get warmer, cost rises, and 
the blue section--virtually the entire cost--comes from this 
heat-related mortality.
    Now, I would like to show how these estimates might change 
if we take adaptation into account.
    First, consider a related study by Barreca et al., that 
looked at adaptation that has already occurred. For the United 
States they found that, ``The impact of days with a mean 
temperature exceeding 80 degrees Fahrenheit has declined by 
about 75 percent over the course of the 20th century,'' and 
that, at 2004 rates of air conditioning, it may even be the 
case that such days would have ``no impact on mortality.'' ``It 
is apparent,'' they write, that ``air conditioning has 
positioned the United States to be well-adapted to the high-
temperature-related mortality impacts of climate change.'' 
Notably, the science estimate on the left side uses the data 
from the study on the right, it just doesn't use the finding 
that a focus on the most recent data reduces mortality 
substantially.
    One more example of how adaptation assumes--assumptions 
affect climate. On the right side is a result from a Climate 
Impact Lab working paper published last year. Here the authors 
do focus on adaptation and, importantly, the costs of 
adaptation, as well as the benefits. We shouldn't forget that 
adaptation has costs, as well.
    But compare the measure of climate change's effect on the 
southeast, on the left, with no adaptation, to the effect on 
the right, with adaptation. Now the southeast is blue. It 
appears to actually benefit from climate change. The authors 
write, ``Failing to account for income and climate adaptation, 
as has been the norm in the literature''--and here they 
specifically the--cite the study on the left--``would overstate 
the mortality costs of climate change by a factor of about 
3.5.''
    Speaking specifically about the southeast U.S., they say it 
is, ``currently so heavily adapted to hot climates'' that 
``additional warming leads to limited additional mortality or 
adaptation costs.'' These locations then end up benefitting 
from reductions in a relatively small number of cold days.
    Let me conclude by emphasizing that none of this means that 
climate change is not a serious problem or does not require a 
policy response. It is, and it does. But in thinking about it, 
and responding to it, we should recognize that our society has 
shown a remarkable capacity to adapt to and thrive in a wide 
variety of climates, some quite hostile, for significant 
periods of the year.
    [Charts].
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Further, our population continues shifting toward the 
South, actively seeking out warmer climates. Cost estimates 
that do not account for adaptation are not good estimates, and 
reports that rely on such estimates can be misleading to 
policymakers and the public. Thank you very much.
    [The prepared statement and report of Oren Cass follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you very much Mr. Cass. We will now 
begin our question-and-answer period. And Mr. Johnson and I are 
going to defer our questioning until the end of the hearing.
    So I will now recognize the gentleman from California, Mr. 
Peters, for five minutes.
    Mr. Peters. Thank you, Mr. Chairman. I want to observe that 
something people may not see on TV, that this place is packed. 
I see rows of people here, listening to this testimony. And I 
judge that maybe three or four of them are over 30 years old. 
This is something that is, obviously, of great importance to 
people in this building. This is as packed as the Mueller 
hearings might be in the Judiciary Committee. Not as many 
members, but the crowd is certainly interested.
    And I also want to respond to my colleague, Mr. Johnson, 
about the Green New Deal. I don't support the Green New Deal 
for two reasons. One is a policy reason. It contains economic 
strategies and things like guaranteed jobs that are extraneous 
to climate action. And I think--with which I disagree. So, in 
fact, I think most of the Members of this Committee on the 
Democratic side have not sponsored the Green New Deal, 
probably--maybe for that reason, but for the other reason that 
is even more fundamental--is that it is divisive.
    I feel like we are--that people have explained some pretty 
overwhelming impacts of climate change. Even Mr. Cass suggests 
they may be overstated, but no one denies that these are issues 
before us. My mom always told me to pray for the best, but plan 
for the worst. So, with respect to you, I am concerned about 
what Dr. Hayhoe said. And we need, I think, to make radical 
change. But I think, to do that, to get radical results, we are 
going to have to moderate our politics.
    The first thing I heard in here was about the Green New 
Deal and the cost of it. And I think, you know, it is a fact 
that most of us haven't endorsed it for that reason. I also 
heard from my own side of the aisle how Republicans are to 
blame for this, and I don't know whether that is true or not, 
but I am not--I did litigation, and that is not what I am here 
for. I think we are here to solve problems. And I think we have 
got a pretty big one in front of us.
    So I have suggested--I have taken a different approach I 
just want to call to your attention, to each of the four of 
you, which is I was thinking what--you know, what--we have been 
working on this for a while. I have been in Congress--this is 
my fourth term. People have all sorts of good ideas about what 
to do about climate. And I decided to put them together.
    So I went back and looked for all the--we have done this in 
conjunction with academics from Duke, and Stanford, UCSD. We 
have looked back at all the--we looked back at all the ideas, 
the bills that had been introduced in this Congress and the 
last Congress, and we compiled them into what we called the 
Climate Playbook. And for you people under 30, it is the pinned 
tweet on my official Twitter account.
    I would ask you to look at it, but it is ways to reduce--it 
is ideas for reducing emissions from various sectors of the 
economy, including manufacturing, electricity, transportation, 
agriculture, promoting energy efficiency--something we can all 
get behind.
    And everything except what Mr. Johnson said about the Green 
New Deal, by the way, I agreed with. Reducing pollution, 
increasing R&D investment, adaptation resiliency, there is all 
sorts of ideas out there that we can get behind today if we get 
our politics behind us a little bit and start to work together.
    And I want to ask Ms. Hayhoe, who is kind of famous for 
being not just a climate scientist, but also an evangelical 
Christian.
    So you are in circles that a lot of Democrats don't travel 
in all the time, and I wanted to know if you had any ideas for 
me, as a Democrat, on how we might be able to engage people in 
really solving this problem, which is bigger than politics.
    Dr. Hayhoe. Thank you. So I am an evangelical Christian, my 
husband is a pastor. And what I have found is that so often we 
think people don't have the right values to care, and we need 
to figure out how to change people's values. But through 
thousands of conversations that I have had with people in our 
faith community in Texas and beyond, I realize that we all 
already have those values. We all care about our families, we 
care about our communities, we care about people who are 
suffering today, poverty, hunger, and more. And those are the 
exact values that we need to care about a changing climate.
    So it isn't a case of emphasizing what divides us; it is, 
as you just said, a case of emphasizing what unites us, because 
that is far greater.
    Mr. Peters. I think that is well said. I think you see 
this--and the Evangelical environmental movement is taking this 
up.
    And look, I used up all my time talking. But politics is 
about us. It is not about the world. We are here to--we are 
here doing politics, ostensibly, as a means to an end. And I 
think we ought to think about that. And I would ask my 
colleagues on both sides of the aisle to--let's work together, 
check out these ideas that we have assembled, and see if we 
can't start making real action.
    I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Missouri, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. As the gentleman from 
California just stated, there is only standing room here, 
witnessing this.
    I also have to point out that it is pretty unfortunate 
that, on this side of the Committee--that is where the 
Democrats sit--and you can see on this side is the Republicans. 
We are the ones that is here. There is five Democrat members, 
and they are the majority. So they may not be as nearly as 
interested about the issue that you all are right now. So I 
just think it is important to notice that.
    Fifty-seven days. Fifty-seven days. This Committee has went 
57 days without passing a budget. Yet this week we are doing 
five appropriations bills on the floor. The Democrat majority 
has rendered the Budget Committee useless, because we have not 
done our job, and we are having a hearing on climate change 
today, when we still need to pass a budget. There is not even a 
budget proposal out there for this Committee to vote on, other 
than a Republican budget proposal. Let's do our job. It is 57 
days.
    A budget is the primary responsibility of governing, it is 
the only document that Congress produces that lays everything 
out: revenues, spending, deficits, and, of course, our vision 
for the future. A statement of values, as Speaker Pelosi has 
called it. Yet after 57 days and counting, we have no statement 
from the House Democrats.
    The reason why is clearly obvious. Free college tuition, 
Medicare for all, guaranteed jobs, and, of course, the $93 
trillion Green New Deal. The numbers don't work. The Green New 
Deal that has been discussed and Medicare for all, just two 
priorities of the House Democrats, would together cost $20 
trillion more than the net worth of every American household, 
$20 trillion more than the compiled net worth of every American 
household, over 320 million Americans.
    Knowing this wish list only scratches the surface, I have 
no confidence Democrats on this Committee can make serious 
decisions about our federal budget. And they don't seem to have 
any, either. So instead, today we are having a hearing on 
climate change.
    And what is their proposal to address climate change? The 
previous-mentioned Green New Deal, which more than half of the 
Democrats on this Committee have sponsored. More than half. 
That is why it should be topic of conversation of this 
Committee. A plan that would cost every American household 
$60,000 a year. Every American household, $60,000 a year, while 
not fulfilling its primary objective, which is reducing global 
carbon emissions.
    While the plan may fail in its primary objective, it would 
be very effective in others: mainly, in destroying American 
agriculture as we know it today. If you don't believe it, that 
it is an objective, look no further than the infamous fact 
sheet.
    No one cares more about their land than American farmers 
and ranchers. Thanks to their innovative solutions, they do 
numerous things to protect the soil, the water, the habitat. 
Look at the Missouri soil and water conservation. We do it 
right in Missouri.
    Democrats say they want to improve the environment. But if 
they accept that premise, it is hard to understand why they 
haven't brought the great trade agreement President Trump has 
negotiated to the floor, an agreement that would bring back 
jobs, increase purchases of U.S. agriculture goods, and yes, 
improve the environment. Thanks to President Trump, our most 
recent trade agreement is the most comprehensive--has the most 
comprehensive environmental obligations of any previous U.S. 
trade agreement in history, which also would provide Canada and 
Mexico to up their standards in protecting our environment.
    Mr. Chairman, I see my time is yield--my time has expired. 
I yield back.
    Chairman Yarmuth. I thank the gentleman. And I would note 
that, while you criticized Democrats for not being interested 
in this topic, you didn't even address climate change in your 
five minutes. But we will----
    Mr. Smith. I said, ``The Green New Deal.''
    Chairman Yarmuth. That is not climate change; that is a 
piece of legislation.
    [Laughter.]
    Chairman Yarmuth. I yield--I now yield five minutes to the 
gentlelady from the state of Washington, Ms. Jayapal.
    Ms. Jayapal. Thank you, Mr. Chairman, and thank you for 
holding this very important hearing.
    And I would just say, with all due respect to my very good 
friend across the aisle, if you really want to know which party 
cares about climate change, let's look at which party pulled us 
out of the Paris accord. Let's look at which party, while they 
were in the majority in the last cycle, rolled back all of our 
environmental protections around clean air and clean water. 
Let's look at which party is putting in charge of major 
agencies people who literally are lobbyists for the coal 
industry.
    And I want to bring this up in the context of--and I--by 
the way, I am a proud supporter of the Green New Deal. It is 
crazy to talk about it in terms of a cost, because what it is 
is a vision. It is a vision for an absolutely critical issue, 
one of the top issues in this country and around the world. And 
we need to have a big vision that matches the scale of the 
crisis.
    Last week the House Intelligence Committee held a hearing 
on the national security implications of climate change. And 
something very odd happened at that hearing: although three 
witnesses testified, only two submitted written testimony. That 
is because the White House took the unusual step of refusing to 
approve the written testimony of a top intelligence analyst at 
the State Department, Dr. Rod Schoonover, because it contained 
information that did not match the Trump Administration's views 
on climate change.
    This weekend the New York Times obtained a copy of his 
original testimony and a copy of his testimony with track 
changes. I have got the whole document here from Dr. William 
Happer, a senior adviser in the Trump Administration, who works 
with the National Security Council. He is also a climate 
science denier. And since we have a panel of climate experts 
here with us today, I thought I would take the opportunity for 
us to look at Dr. Schoonover's testimony and determine whether 
his positions are in line with the science, not whether they 
are in line with the opinion of the Trump Administration.
    And so let me start with you, Dr. Hayhoe. You are a top 
climate scientist and lead author of multiple volumes of the 
National Climate Assessment. Is Dr. Schoonover correct in his 
written testimony when he says that, ``The earth's climate is 
unequivocally undergoing a long-term warming trend''?
    Dr. Hayhoe. Yes, chapter one of volume one of NCA concludes 
that global climate continues to change rapidly, compared to 
the pace of natural variations in climate that have occurred 
throughout earth's history.
    Ms. Jayapal. That was a comment that was taken out. And how 
about when he says 18 of the last 20 years--this is a quote--
have been the warmest on record, and the last five years have 
been the warmest five according to NASA's Goddard Institute of 
Space Studies?
    Dr. Hayhoe. Yes. That information is available, and anyone 
can see it for themselves, in chapter two of volume two, which 
I served as lead author.
    Ms. Jayapal. So once again, that was something that, in the 
written comments, it was completely taken out and denied as not 
being science.
    And how about this one? Ocean waters are also acidifying 
from the absorption of atmospheric carbon dioxide. Is that a 
true statement?
    Dr. Hayhoe. Yes. That is summarized in chapter 13 of volume 
one, which was called ``Ocean Acidification.''
    Ms. Jayapal. So again, very important facts that were taken 
out by Mr. Happer.
    Mr. Chairman, I would like to enter a clean copy of Mr. 
Schoonover's--Dr. Schoonover's testimony into the record today, 
since it wasn't entered into the House Intelligence record.
    And I would also like to enter a copy of the version with 
Dr. Happer's track changes, in which all three of these facts 
were deleted.
    Chairman Yarmuth. Without objection, so ordered.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Jayapal. Thank you. In late March I sent a letter to 
the National Security Council raising concerns about their 
decision to assemble an ad hoc Committee headed up by Dr. 
Happer to provide an ``adversarial review'' of the federal 
government's climate science findings. And in that letter I 
said, ``While any president has the right to ignore or act in 
contradiction to the advice of top government scientists, it is 
clear that the goal of this ad hoc Committee is to undermine 
legitimate science itself, which will make it more difficult 
for national security officials to prevent and respond to the 
changing climate.''
    This Administration's interference in this testimony by Dr. 
Schoonover is exactly what I feared would happen when I wrote 
my original letter. And I never got a response to that letter. 
So today I sent a second letter asking for a response to my 
original letter, which had a series of questions. And I would 
like to, Mr. Chairman, enter my new letter and my original 
letter into the record now.
    Chairman Yarmuth. Without objection, so ordered.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Jayapal. Thank you. The Trump Administration's attempt 
to bury critically-important scientific analysis by our top 
intelligence agents is horrifying and dangerous. It is not the 
job of the president to actively undermine the work product of 
dedicated civil servants in our intelligence community, like 
Schoonover or Dr. Hayhoe, who has done such incredible work on 
climate science. It really puts our country and the entire 
globe at risk. And I very much hope that my colleagues across 
the aisle, if they really care about this issue, will not just 
show up to this hearing to talk about everything but climate, 
but will actually work on affecting and reducing, mitigating 
climate change.
    Thank you, Mr. Chairman, I yield back.
    Chairman Yarmuth. The gentlelady's time has expired. I now 
recognize the gentleman from Oklahoma, Mr. Hern, for five 
minutes.
    Mr. Hern. Mr. Chairman, I am glad we are having this 
hearing today. This is a good opportunity for us to explore how 
these ideas fundamentally and practically won't work, in 
addition to their stunning cost.
    I take exception to we shouldn't be worrying about the 
cost. Climate change must be addressed without sacrificing our 
country's economic and fiscal well-being. Destructive policies 
like the Green New Deal, something we don't apparently want to 
talk about today; extreme theories such as the modern monetary 
theory, which argues that we can simply print more money to 
correct Congress's fiscal wrongdoing.
    In my home state of Oklahoma, one in five jobs is directly 
or indirectly supported by the oil and natural gas industry. 
For example, in my district the Williams Company employs 1,250 
Oklahomans; Magellan Midstream Partners employs over 900. 
Oklahoma's priority on energy dominance has paved the way for 
local entrepreneurs such as Valerie Mitchell of Corterra Energy 
and Don Burdick of Olifant Energy to take on a massive personal 
risk that results in job creation, giving back to the 
community, and stimulating Oklahoma's economy.
    In fact, in 2018 the oil and natural gas industry was also 
the largest source of tax revenue in my state, directly paying 
over $2 billion in taxes, including the annual $555 million-
plus that go directly to education, and almost $90 million that 
go directly to our state's infrastructure. My home state of 
Oklahoma's energy industry employs hundreds of thousands of 
people, and generates more than $50 billion, annually. Oil and 
gas companies bring high-paying jobs to Oklahoma, and have been 
the single largest contributor to state revenue in recent 
years.
    Under the toxic Green New Deal we would lose those jobs and 
the important impact those companies have on my state. While my 
friends on the other side of the aisle are so focused on 
advancing some of the most extreme proposals in Washington, 
they are unfortunately ignoring the demands for jobs in some of 
their own states.
    For example, in Minnesota my colleague, Representative Pete 
Stauber, has worked tirelessly, and been outspoken in the 
support of replacing an old pipeline known as Line three to 
make it safer. It is currently corroded and only about at half 
of the capacity, potentially creating roughly 8,600 jobs over a 
two-year period, which building trades are saying they are 
strongly supporting. There is an old and unsafe pipeline, which 
can be improved, modernized, and made more efficient. Yet some 
of our colleagues prefer forcing a large-scale transformation 
of society, which the Green New Deal suggests, over the needs 
of our local communities.
    Also in Minnesota mining projects would produce the 
precious metals used to make wind turbines. Yet some of my 
Democratic colleagues oppose those initiatives, as well. The 
U.S. then relies on China and other foreign countries with 
little or no labor protections. This is very sad. It is a 
shame.
    Furthermore, several other states are blocking this type of 
critical energy infrastructure, including New York and 
Washington State. New York has blocked multiple natural gas 
pipelines, despite its growing northeast demand for gas, a move 
that not only impacts Williams jobs in my district, but also 
forces New York state to rely on foreign oil, which is more 
expensive than domestically-produced sources of energy, and 
with lesser environmental standards. Blocking those projects 
denies consumers even beyond their state's borders access to 
more affordable energy.
    It seems as though some Democrats are listening to radical 
environmental activists, instead of working, seeking new jobs 
in their districts, and consumers looking for lower energy 
bills.
    That said, my questions today are directed to you, Mr. 
Cass. Talks of Democrat proposals such as the Green New Deal 
have an astronomical price tag. And yes, it matters, $93 
trillion. To pay for it, taxes would be severely raised on 
every income level. But even these drastic measures would only 
pay for a fraction of the Green New Deal. Not only is this 
legislation detrimental to our state's economy and key 
industries, but it also would destroy the country's economy.
    As I just expressed, many of our constituents' jobs rely on 
the oil and gas industry. If we implement the Green New Deal, 
would our constituents experience job losses?
    Mr. Cass. That would be my understanding of the Green New 
Deal.
    Mr. Hern. And what would cause that?
    Mr. Cass. Well, the premise of the Green New Deal would be 
to shift our energy consumption away from conventional fossil 
fuel sources and toward alternative sources, reducing demand 
for the conventional sources.
    Mr. Hern. Such as, like, airplane pilots and those kind of 
things. We wouldn't be flying any more, according to the fact 
sheet, the infamous fact sheet.
    Mr. Cass. I am not sure what to make of the fact sheet.
    Mr. Hern. Okay, I just wanted to make sure. Thank you for 
your answer. You know, on March 26, 2019--I know there has been 
a conversation here that many of the Democrats don't support 
it. But the Senate voted down the Green New Deal by a vote of 0 
to 57. And many of those actually endorsed it and cosponsored 
it. So, in fact, 43 Senators refused to even cast a vote at 
all. So their silence speaks volumes.
    Mr. Chairman, I yield back.
    Chairman Yarmuth. The gentleman yields back. I now yield 
five minutes to the gentleman from New York, Mr. Morelle.
    Mr. Morelle. Thank you, Mr. Chairman, for holding this 
hearing on an important topic. And I would, for one, would like 
to associate myself with the comments made by Mr. Peters about 
this topic, generally.
    And I will say, before I get to the questions, I am 
frustrated. For all the talk today about the Green New Deal, 
which is not before us, and modern monetary theory, the truth 
is that the science on climate change is pretty much 
universally accepted now in the scientific community among most 
people in the country. And the idea that, when we are talking 
about the economic or the fiscal impacts of it, we break down 
not on this side--not on that side of the table, but on this 
side of the table, having this silly argument--to me, it is 
just incomprehensible.
    We have a problem. It is a significant, it is a persistent, 
it is a growing problem. And it will continue to affect people 
in this country and around the world. We ought to work 
together, I think, as Mr. Peters eloquently said, to try to 
find real solutions to it.
    And I do appreciate very much, Mr. Chairman, you having 
this hearing.
    I will say, just for me, I represent Rochester, New York, 
which is on the southern shore of Lake Ontario. In 2017 we had 
catastrophic flooding. We are experiencing record levels again 
today. I was with Governor Cuomo and most of his cabinet who 
had come to Rochester yesterday to what--excuse me--to announce 
$300 million being spent by the state of New York. That is on 
top of $100 million that we spent two years ago to help 
homeowners and businesses and municipalities deal with 
flooding.
    There may be a whole host of reasons, but it certainly 
seems to me weather patterns, record rainfall, snow runoff, and 
associated weather patterns have had a profound impact just on 
the state of New York, and will continue to have here.
    So I wanted, if I might, Dr. Hayhoe, what do we know about 
how climate change is increasing the frequency and severity of 
storms, heavy rainfall events? There seems to be a fair amount 
of opinion, again, on this side of the table about what the 
severity is. But can you talk about that, both inland as well--
and affecting the river system, as well as coastal, and how 
attribution science advanced in the past few years?
    Dr. Hayhoe. I am originally from the other side of the lake 
from you, and southern Ontario also experienced devastating and 
unprecedented flooding this year. We know that storms and 
floods have always happened naturally. But in a warmer world, 
air holds more water vapor. So when a storm comes along, as it 
always does, today there is more water vapor for that storm to 
sweep up and dump on us than there was 50 or 100 years ago.
    And one of the places that we have seen the biggest 
observed increase since the 1950s, and the frequency of heavy 
precipitation, has been in the U.S. Northeast and the Midwest, 
which puts Upstate New York in exactly the middle.
    Mr. Morelle. And the--I assume you gather data on this. So 
is there reliable information we can get on--as it relates to 
attribution of weather patterns and increasing temperature?
    Dr. Hayhoe. Heavy precipitation has been formally 
attributed--or, I should say, the observed increase in heavy 
precipitation has been formally attributed to human-induced 
climate change for quite some time. The signature is very 
distinct.
    Mr. Morelle. The--it is interesting. This wasn't my 
original question, but as I am thinking about it--I only have a 
minute-and-a-half left, and I am sorry for that, but the--I was 
recently at the Institute on Sustainability at Rochester 
Institute of Technology, the world famous--they travel around 
the world, talking about how to reduce the carbon footprint in 
manufacturing, lean manufacturing, and helping businesses try 
to get to zero emissions. And they were talking about how, you 
know, even in a world in which we will clearly combust 
renewables--there is a whole science around biomass and other 
ways to generate heat--they talk about the--sort of the 
capture--why carbon captured and petroleum and other products 
are so much of a challenge, because you are releasing centuries 
and centuries of carbon into the atmosphere.
    Could you just comment on that, so--it helps people, I 
think, who think about--we are still going to be burning 
biomass or other--or anyone else on the panel can certainly 
address it. But the science around that would be helpful.
    Dr. Hayhoe. Yes. So when we burn biomass--trees, crops, 
agricultural waste--we are burning things that contain carbon 
that took that carbon out of the atmosphere just years or 
decades ago. So it, essentially, is carbon neutral. When we 
burn coal and gas and oil, we are digging up and burning 
sources of carbon that have not seen the atmosphere for 
millions of years.
    And, as the National Climate Assessment concludes, as far 
back as we can go, at least 50 million years in the past, there 
has never been a time when this much carbon was being released 
into the atmosphere this fast.
    Mr. Morelle. Thank you, Mr. Chairman.
    Thank you for the answer. I yield back my time.
    Chairman Yarmuth. The gentleman's time has expired. I now 
yield five minutes to the gentleman from Utah, Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Chairman. And as always, to the 
witnesses, thank you for being here and for your efforts to 
prepare yourself for this hearing.
    I do have questions, and--but I feel compelled to make kind 
of some observations about some things I have heard here, and 
in other hearings such as this.
    I want you to know that I accept that climate change is 
real. I think we have redefined a little bit what that means. 
It has changed a little bit. But the climate is certainly 
always changing. It is something that we need to accept, and we 
need to try to understand.
    I also accept that human behavior is contributing to it in 
some way. I can tell you that I have spoken with--including the 
former director of the EPA and other very, I would hope, 
knowledgeable individuals on this, and asked them how much of 
this can we attribute to man and to human behavior, and the 
answer she gave was, ``We don't know.'' And I think that is an 
honest answer.
    Some of you are shaking your head, but that is an honest 
answer. We don't know. Some people think they know, but there 
is much disagreement on how much of this is directly 
attributable to man.
    So the question, I think, is what do we do, and how can we 
best mitigate this? How can we mitigate the impacts of it?
    Look, I don't want to beat up on the Green New Deal. Talk 
about beating a dead horse; that horse has, I think, been dead 
and buried. It is the greatest gift given to the Republican 
Party in a long time in many ways. I believe it is unserious, I 
believe it is based on fear-mongering, I think it is steeped in 
the heavy-handed government power that would cost--destroy the 
American Dream for us and for our children.
    But I think now what it comes down to is what do we do? And 
I just think there is a better way. There has to be a better 
way. And that is where I would like to bring, then, to my 
question. And I think, Mr. Cass, I perhaps would ask you.
    Among all these projections of the drought, and flooding, 
and family violence, and related deaths, et cetera, if the 
earth keeps warming, there are some market solutions to some of 
these. And I would be interested if any of you have thoughts.
    Again, Mr. Cass, I would look to you to maybe begin. But 
look at--help us understand some of the success of free 
enterprise, democratic and market-driven solutions that would 
maybe help mitigate some of these concerns.
    Mr. Cass. Sure. I think when we are talking about how to 
address the problem of climate change, it is important to 
realize we are having two conversations. One is about what is 
mitigation, meaning what can we do to reduce the amount of 
carbon dioxide and greenhouse gases we are releasing, and then 
one is about adaptation, meaning how can we cope effectively 
with any change that does occur?
    On both sides I think free enterprise and innovation can be 
and have to be central to the solution. So, from the mitigation 
perspective, if we want, in particular, to reduce emissions 
globally--at the end of the day it is global emissions that 
matter--we are going to have to have technologies for the 
developing world that are more attractive than fossil fuels. 
And we don't have those today. And so, continued innovation 
and, actually, the development of new and better technologies 
has to be part of the program.
    On the adaptation side, you know, one of the wonderful 
things about adaptation is that it tends to happen fairly 
naturally, if people have the right information, and if they 
have the right incentives. So, as an example, if someone is a 
coastal property owner, if they understand the best-available 
scientific forecast for sea-level rise, and they understand 
that they are going to be on the hook if their property faces 
damage, they will respond rationally by building resilience, by 
community-wide investing in protection, and potentially, in 
some cases, by moving away over time.
    If they don't have good information, or if they don't have 
good incentives. If we tell them the federal government is 
going to pay for whatever happens to them, then they won't 
react. And so I think, on the adaptation side, it is the 
information and the incentives that policymakers really have to 
get right.
    Mr. Stewart. Well, and I think exactly right. I mean--and 
this is a fairly--some people think this is complicated, but it 
is really not, and that is the rational behavior of people 
through incentives. And you can either compel them through a 
very, very heavy-handed government, or you can incentivize them 
and expect, as we have for several thousand years, that people 
will respond rationally and what is in their best interests.
    And I will conclude in the last half-a-minute that I have, 
and that is to emphasize one other thing you said, and that is 
this has to be a global solution. Without partners on this, we 
can't fix this ourselves. And the truth is that our partners 
are dishonest and disingenuous in their commitment to this, 
many of them.
    I don't think China has any intention at all of impeding 
the growth of their economy for the next 20 years in order to 
address climate change. I don't think Indian does, either. They 
have hundreds of millions of people in poverty they have to 
lift up to the middle class; that is their goal. And they won't 
allow U.S. policy on climate change to impede them in that 
goal. And if we don't recognize that we can't do this 
ourselves, and find something that works globally, then we are 
beating our head against a wall.
    Mr. Chairman, thank you. I yield back.
    Chairman Yarmuth. Thanks. The gentleman's time has expired. 
I now recognize the gentleman from Texas, Mr. Doggett, for five 
minutes.
    Mr. Doggett. Thank you very much. The inconvenient truth is 
that we have a global climate crisis. And whether you call it 
the Green New Deal or a climate action plan, what we need is 
bold action, and we need it now. And ignorance and delay and 
avoidance and denial is not such a policy.
    Last month we had carbon dioxide reaching the highest level 
in the history of human existence. And last week we had the 
Trump Administration still trying to prevent a State Department 
official from testifying about the catastrophic potential of 
human-caused climate change. The Trump Administration always 
prefers political fantasy to science and scientific fact. They 
have questioned and harassed so many scientists across this 
country, one agency after another, that you have to begin to 
wonder if they believe in gravity.
    Of course, willful ignorance of climate change is not a 
laughing matter. Across America we are seeing with our own eyes 
the impact of inaction: severe and erratic weather, 100-year 
floods that become 100-month floods; 60 inches of rain in the 
energy capital of America in a very short period of time: 
Houston, Texas; West Nile virus and Lyme disease, that were 
once uncommon, afflicting more and more of our neighbors. These 
changes, of course, will be disproportionately impacting the 
most vulnerable, our children and our seniors.
    Since everything is bigger, in fact, in my home state of 
Texas, the impact of climate change is more far-reaching there. 
Of course, Texas is the state that produces the most carbon 
pollution and the most climate deniers, increasingly leading 
now with the most climate disasters. The National Climate 
Assessment predicts rapid swings from extreme drought to flood 
and sea-level rise along the Texas coast, twice the global 
average. In Texas we have always had two summer temperatures, 
hot and hotter. But now it is just hotter, as we are on track 
for 30 to 60 days of over-100-degree temperatures every year.
    Just a little bit of prevention would go such a long way 
towards cost savings.
    And there is reference to the marketplace. Well, yes, in 
the marketplace one company after another--what insurance 
company would not consider the impact of human-caused climate 
change? What business along our coast wouldn't consider that? 
There are market answers. But in 2017 the 16 extreme weather 
disasters in the United States had a market impact. They cost 
over $313 billion.
    We see companies around the globe that are changing what 
they are doing. They are expending billions of dollars because 
they know they could face trillions of dollars in loss. The 
cost of continuing to do nothing is impacting much more than 
polar bears and exotic locations in travel magazines.
    Energy-efficient alternatives shouldn't be the alternative; 
they should be the standard.
    Trump always says that he hates losers. But he has picked 
the losing coal industry. And coal, the war on coal, has been 
very real. And coal has lost. It has lost in the marketplace to 
cleaner Texas natural gas and renewable energy.
    Of course, the Trump Administration would say that our 
years and years of record-breaking heat isn't a dangerous sign 
of climate change. I guess they would call it alternative 
climate.
    I believe that we must treat climate change as a national 
security concern, as have so many senior defense officials.
    The Green New Deal, while aspirational and imperfect, 
offers a road map far stronger than the do-nothing Republican 
alternative of rejecting science in favor of obstruction. Just 
as a little bit of prevention goes a long way toward cost 
savings, a little temperature increase goes a long way toward 
disrupting our weather patterns. We have got to do more than 
just pray for rain in modest amounts.
    Dr. Hayhoe, I appreciate the testimony of all the 
witnesses. But as a fellow Texan, I would ask you, since you 
have testified in front of both the Austin and San Antonio City 
Councils, do you believe that these local climate action plans 
are important to adopt in the face of inaction in Washington? 
And what do you see as the impact in Texas of climate--the 
climate crisis?
    Dr. Hayhoe. Well, first of all, in our state of Texas, we 
are seeing that our natural patterns of feast, and famine, 
flood, and drought, are being amplified across much of the 
region. This is affecting our agriculture, our water, our urban 
infrastructure, and more. City-level plans absolutely make 
difference, both in preparing and building resilience to the 
impacts of a changing climate, as well as to weaning ourselves 
off the fossil fuels that are the primary cause of this issue.
    DFW Airport is the first carbon-neutral airport in North 
America.
    Mr. Doggett. Thank you.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Texas, Mr. Roy, for five minutes.
    Mr. Roy. I thank the Chairman. I thank the witnesses for 
taking time out of your schedules to come here and join us 
today.
    Ms. Hayhoe, I would say to you my dad is a Texas Tech 
graduate, grew up in West Texas. And I will tell you, I took 
him to Minneapolis for the basketball game, which seems like a 
magnanimous and awesome thing to do for your father, until you 
realize that I went to the University of Virginia. So--but I 
was sitting with Jody Arrington, who is the congressman from 
Texas--from Lubbock, and Texas Tech made a great run.
    But I appreciate you being here. I do want to pick up on a 
few things that have been said here today, and offer a few 
thoughts.
    But first of all, that I think it is really important, as 
we think about this issue, to factor in human flourishing and 
the world--the benefit that is provided for humankind by the 
clean, abundant energy. You know, in the 1870s the average 
American family, 80 percent of their income was on food, 
shelter, and clothing. Today is it about a third. We have seen 
a--in the 1955, for example, only 2 percent of the American 
people had access to air conditioning. By 1980 it was 50 
percent. Over the last 100 years, deaths from climate-related 
events have fallen from somewhere in the zip code of half-a-
million to 20,000, while the population has nearly tripled.
    We have created an environment because of adaptation that 
was previously discussed by a witness that is critically 
important to recognize in the context of what we are talking 
about.
    You know, today, however, if you look around the world, you 
still have a billion people--a billion--without access to 
electricity. You have 2.7 billion, 38 percent, who are using 
biomass and dung, basically, for fuel, for cooking. You have 
got half of the world population lacking enough electricity for 
the essentials that we just take for granted in the United 
States today. You have hospitals in countries that are not 
first-world countries, where you have got doctors having to 
squeeze bags to keep babies alive on incubators. Here, we don't 
have that problem.
    So what I would ask for the people, as we are going through 
these issues, to put a little perspective on the benefits that 
we have in this world and our lives, from access to abundant 
energy. And then we got to figure out, well, how are we going 
to get that energy?
    And if you look at what has been happening in the world, 
where people have sort of bowed down at the altar of this sort 
of climate change hysteria, instead of dealing with it head on, 
and thinking about making sure there is clean, abundant energy, 
you have Germany, where retail electricity is up 50 percent 
from 2007 to 2017 because of taxes and subsidies; $24 billion 
increase--I am sorry, $24 billion euro in 2017 is the cost of 
direct--of the direct taxes and subsidies for renewable energy. 
The IHS estimated net export losses to Germany due to high 
electricity prices of $52 billion euros from 2008 to 2013. 
Meanwhile, the carbon dioxide in Germany has fallen only 9 
percent from 2003 to 2016.
    Now, you talk about partisanship here. Who produces the 
most natural gas in the world? I am proud to say, as a Texan, 
it is Texas. Who produces the most wind energy in the United 
States? I am proud to say, in Texas, it is Texas. We got a 
quarter of the nation's wind energy. We just cracked 19,000 
megawatts in December of wind production.
    But it is still a fraction of our overall peak demand. And 
it does have consequences in that conversion. And if you think 
about that, let's strike a balance. Who was doing that? My 
former boss, Governor Rick Perry. Oh, the dastardly 
Republicans, who bury their head in the sand on energy. We were 
creating a all-of-the-above approach in Texas. But there are no 
just magic energy trees.
    I am always amazed--I was at an event one time and there 
was somebody in the crowd, and they said, ``Well, where are we 
going to get power if we don't use fossil fuels?''
    And this person said, ``Electricity.'' Like just magic 
generation of electricity.
    We have to have power to have what we enjoy in this world. 
And, you know, I think if you think about what the--on the 
terms of these impacts, I would say that we got to think about 
it here in the Budget Committee, about what the actual impact 
will be on civilization, if we go down the road of the Green 
New Deal. We have enormous benefits in terms of life 
expectancy, in terms of the benefit that we have to our 
families, our children, jobs, access to hospitals, access to 
clean air and water. If you overlay the freest countries in the 
world with a map of those that have the cleanest environments, 
it is almost a direct correlation.
    We will lead this fight if we think about what we are 
trying to produce in terms of access to clean energy, and 
making sure that we have got abundant energy to make our lives 
better.
    And with that I will yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
yield five minutes to the gentlelady from Illinois, Ms. 
Schakowsky.
    Ms. Schakowsky. Mr. Cass, I just wanted to ask you a yes-
or-no question. Let me see. Where did it go?
    I have information here that says the Manhattan Institute 
has received funding from the Koch Brothers. The Claude R. 
Lambe Foundation, one of the Koch family foundations, reported 
giving all--over $2 million to the Manhattan Institute. Is that 
correct?
    Mr. Cass. I don't know, I am sorry.
    Ms. Schakowsky. Okay. I think it is. I am really frustrated 
in this hearing today.
    And what I am hearing is that those people who feel a sense 
of urgency about what is happening to our planet--actually, the 
planet will probably do better without us. But to the 
preservation of our species right now, that there is an urgency 
about this, that, in fact, in the last year--and one of you, I 
think, can confirm this--that we actually saw an increase in 
carbon emissions. And I wonder if you could--one of you could 
talk about that, 3.4% or something like that last year, in 
2018. Doctor----
    Dr. Hayhoe. That is correct. U.S. emissions did increase 
last year. And globally, carbon emissions continue to increase.
    Ms. Schakowsky. You know, 20 years ago--a reporter found 
that over 20 years ago--when I was in the state legislature, I 
made a speech on the floor of the House about how we have to 
get serious about this. And then he followed up with me not too 
long ago. And I said, you know, ``Twenty years and we are going 
in the wrong direction.''
    It seems to me--am I overstating this? This is existential. 
This is about the future of the young people that are in this 
room.
    I agree in the--noticing what Congressman Peters did, that 
young people are here. But that is because what I am hearing in 
my district is from young people.
    Can you--can anybody talk about this in terms of, really, 
the--why we have to have a sense of urgency now?
    Dr. Hayhoe. The first time that scientists formally warned 
a U.S. President of the risks and the dangers that climate 
changed posed to our society was over 50 years ago, and that 
president was Lyndon B. Johnson.
    It is not, as you stated, our planet that is at risk. It is 
not even our species. It is our civilization. It is everything 
that makes our lives worth living. And it absolutely is our 
economy, as well. We have progressed tremendously over the last 
300 years, and I am actually very grateful, personally, for the 
benefits fossil fuels have brought us. But just as we 
transitioned from horses and buggies to automobiles, in the 
same way we must now transition our energy systems into the 
future to ensure our continued security.
    Ms. Schakowsky. So the President of the United States, when 
he was running for office, said that he would break the 
Environmental Protection Agency into little tidbits. That is 
what he talked about.
    There is a hearing going on also in Energy and Commerce on 
what is happening to the Environmental Protection Agency, and 
the kinds of changes that have happened. What should we be 
expecting from regulation right now?
    I am worried about the Midwest. That is where I am from. We 
have floods, many of our farms are under water. But I am also 
worried about climate refugees, because I think we are seeing 
that already. And if we want to stop people coming from places 
where they can't farm any more to the United States, we better 
do something about this. What do we need to do, in terms of 
regulation?
    Dr. Hsiang. I think, at present, we are very poorly 
equipped, from an institutional standpoint, to cope with what 
we might expect to see, in terms of the influx of migrants, 
migrants coming from other countries as well as the internal 
displacement of Americans. I think the Dustbowl is maybe the 
closest analog we have to what we might expect to see in the 
Midwest, with roughly a 25 percent chance.
    And so, thinking about the movements of our own internal 
populations trying to cope with climate change, it is a form of 
adaptation, and it is incredibly costly to the people who have 
to pick up and move their lives.
    Ms. Schakowsky. So I was sitting on Lake Michigan. Is 
someone going to be coming after this source of water? Are 
people going to be moving?
    Dr. Hsiang. It seems implausible that the places where 
people are currently conducting agriculture and making their 
livings are going to be the same places in the future where 
people can continue to make livings.
    Ms. Schakowsky. Thank you. I yield back.
    Chairman Yarmuth. The gentlelady yields back. I now yield 
five minutes to the gentleman from Georgia, Mr. Woodall.
    Mr. Woodall. Thank you, Mr. Chairman. I will pick up where 
Ms. Schakowsky left off.
    Given that you have about 25 percent of the world's fresh 
water close by, I can promise you that we in the deep South 
will be coming for your water one day. And I want to--I just 
want to prepare folks for that.
    I also want to ask Mr. Cass the easy yes or no question. I 
actually have two for you. If Ms. Schakowsky is able to wrangle 
up some dollars from anywhere on the ideological spectrum to 
help you do your research, are you willing to accept those 
dollars?
    Mr. Cass. I have no role in fundraising at the Institute. 
So you would have to ask them.
    Mr. Woodall. Then I will ask the opposite question. Does 
the quality of your research vary, based on where the funding 
for the Institute comes from?
    Mr. Cass. No.
    Mr. Woodall. I tell you. I have been incredibly pleased, 
Mr. Chairman, with this hearing. I did not expect to come and 
be inspired, but I really have been.
    Dr. Hsiang, it was your testimony about managing the 
climate--well, managing the earth as an asset that got me 
started in the right place, because I think that is something 
we can agree on, up and down the ideological spectrum. We all 
understand managing assets. And managing assets doesn't mean 
there is a foregone conclusion of where we are going to go, it 
just means we are going to try to maximize that ability.
    Dr. Hayhoe, for you to say it is not about preservation of 
the species, it is about preservation of the civilization, 
there is a quality of life here that we are operating on, too. 
I think there is just so much that we can agree on.
    Mr. Woodall. I put back up Mr. Cass's chart here, because I 
do have a complicated time sorting through which facts are the 
facts, and which facts are the angle.
    [Chart].
    
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Does anybody disagree with what he has put on the board 
here, to say that the research is projecting that Pittsburgh is 
going to have 12 deaths per 100,000 because of extreme heat, 
but Phoenix today only has 0.17? Is--does anybody disagree with 
those conclusions?
    Dr. Hsiang. In a careful review of Oren Cass's earlier 
work, we were unable to confirm these numbers.
    Mr. Woodall. But, I mean, is--that is--these--we are 
talking about orders of magnitude here that, yes, if I look at 
the numbers on the right, I am incredibly frightened. But when 
I look at the numbers on the left, I am incredibly comforted 
that there should be some sort of agreed-upon metric.
    Now, I don't--you don't have to agree it is 12.8 instead of 
12.7, but is double digits right on the one hand, and 
fractional digits right on the other? Again, I--if we can agree 
on that, foundationally, it just seems that it offers us a 
different place to have a conversation.
    Dr. Hsiang. I think the three bars on the left do not come 
from a peer-reviewed analysis. And, in fact, I have no idea 
where they came from. And we were unable to confirm them when 
we tried to understand what Oren Cass did in his earlier 
calculations.
    Mr. Woodall. The--Mr. Cass, sure.
    Mr. Cass. Yes. In my paper that I assume he is referring, 
it cites specifically to the website at EPA that provides a 
downloadable spreadsheet from which those numbers come.
    And could I also add that the 2017 version of the EPA study 
actually provides a map that shows these numbers in circles. 
And you can go straight to the EPA study and find the map that 
shows in the year 2000 those are the values, and in the year 
2100 those are the values.
    Mr. Woodall. Well, I would just share with you this whole 
conversation about adaptation, it is the first time I have 
heard it from a witness panel. Generally--my chairman 
excepted--when we call witnesses, we sometimes get the most 
extreme views on both sides, and the opportunity for 
conversation is eroded. But yes, I am not talking about 
stopping everything I am doing today. We are going to continue 
to progress.
    Let me ask about nuclear energy for a moment, because 
carbon is the--is our baseline. We are getting ready to move an 
energy and water appropriations bill to the floor of the House. 
It has--contains zero money for licensing Yucca Mountain. As 
you know, that is a political issue. We have spent billions out 
there. This isn't to open it, this is just to license it, to 
finish the studies. If we opened it today it would be full, 
because we have so much nuclear material across the country 
that needs to be stored.
    Is it the position of folks at the desk--do we have a 
position, in terms of addressing climate change, on supporting 
nuclear energy and, thus, providing safe storage?
    Dr. Hayhoe, do we have a position?
    Dr. Hayhoe. There is not a formal position among climate 
scientists. But I can tell you for sure that it doesn't produce 
carbon pollution.
    Mr. Woodall. we used to be the largest coal-burning state 
in the nation. We are on our way to being the--having more 
solar generation and more nuclear generation than any other 
place. But I need that all-of-the-above strategy to work with.
    I appreciate what you said about renewables, in terms of 
forestry, too. In Georgia, trees are crops, just like corn and 
cotton are. You don't clear-cut your land and leave it there. 
You manage it, you cut it once, you cut it again, you replant, 
you do all of those things to be a good steward of the land 
that you love. But the EPA has grappled with that. The European 
Union is grappling with where to continue that.
    Is it an agreed-upon, settled conversation here in the 
States, that biomass is, in fact, carbon neutral?
    Dr. Hayhoe. It depends on how it is grown. If more energy 
is put into growing it than burning it, no.
    Dr. Hsiang. Absolutely.
    Dr. Hayhoe. Yes.
    Mr. Woodall. Mr. Chairman, you have been generous. I thank 
you very much. And I thank you all for the conversation today.
    Chairman Yarmuth. The gentleman's time has expired. I now 
yield five minutes to the gentlelady from Texas, Ms. Jackson 
Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you very much, and to 
the Ranking Member, as well, and to my colleagues. It is 
important that every single Committee that has jurisdiction on 
this question, I believe, should be engaged in the question of 
climate change, because it is a impactful condition that is 
going to skew the economic health of the nation. And it 
certainly, for me, poses a serious question why everyone is not 
looking, reviewing, researching, and that those who are climate 
deniers as to the impact, I would argue vigorously or suggest 
further in-depth consideration of the numbers I am about to 
give you.
    In 2018 we had $306 billion in cost from natural disasters; 
16 disasters were a billion-plus in costs. We were dealing with 
five of the warmest years. Just those mere facts, and the 
evidence of what I witnessed as an impacted individual--and my 
constituents--in Hurricane Harvey, which saw 51 trillion 
gallons of water to create an ocean in the City of Houston.
    Now, I want to say to my friends in energy that I represent 
those constituents, as well. What I have said to the multi-
nationals is let everybody know that you are engaged in 
research on climate change and renewables. Let everybody know 
that you are aware, because of your scientists, of what can 
transpire as relates to this issue of climate change.
    I don't know how anyone can proudly claim themselves a 
denier. They did not walk in my shoes. They did not walk in the 
12 to 1,500 people who died in Hurricane Katrina, the 3,000 to 
4,000 who died in Puerto Rico, only to be discovered way late, 
when Harvard University used its research to determine how many 
died. And, obviously, wildfires and the massive flooding that 
just occurred in America the last three weeks across the 
landscape of the Midwest.
    So I believe this is a crucial and important discussion. 
Let me quickly--I am going to give three questions. And if you 
can answer them--and I will give them all at this point.
    Dr. Hayhoe, how is climate change expected to impact water 
supplies, drought, and wildfires in various regions of the 
country? And why are we seeing both increased flooding and 
increased drought--i.e. in the state of Texas, Austin, and that 
west area, or middle of the state area we are seeing that.
    Dr. Hsiang, if you would, comment on the assessment--
estimate that the future cost of inaction on climate change 
could reach roughly 3 percent of the national GDP annually by 
the end of the century. What is the right way to think about 
these estimates, and the way we should use them to plan for the 
future?
    And then I want to ask Mr.--sorry, I can't see your name 
right now. If you would, follow up on the same comment about 
the cost of climate change. And you may incorporate something 
else.
    My time is short, but if you all could go ahead, I yield to 
you on the answers, that this is an imperative that we 
understand this.
    Dr. Hayhoe. Wherever we live, our precipitation follows 
natural patterns of wet and dry, wet and dry. If we live in 
Texas, it follows natural patterns of wet and dry and wet and 
dry. And as the planet warms, this natural pattern is being 
stretched in both directions.
    Warmer air means more water vapor. When a storm comes 
along, it picks it up and it dumps it on us, creating heavier 
rain. When the storms don't come along, during drought, it 
means longer and stronger droughts.
    Ms. Jackson Lee. Doctor?
    Dr. Hsiang. I would like to confirm that the number you 
mentioned is in the reasonable range of previous estimates.
    Thinking about what large fractions of GDP could be lost 
from climate change is like thinking about just paying a tax, 
except you get nothing in return. So we estimate that just 
replacing destroyed assets during hurricanes, even in the state 
of Florida, is going to cost roughly 12 grand a year. And it 
only cost 14 grand to go to Berkeley, where I teach. But 
instead, you will just be replacing broken things, you won't be 
getting an education in return.
    Ms. Jackson Lee. So a massive cost.
    Dr. Gomez, you are with U.S.----
    Mr. Gomez. Sure. From our perspective, we look at climate 
change from a fiscal exposure, and so we have reported on the 
variety of areas on which the federal government is exposed, 
being a owner of facilities, an insurer of property, and also 
crop insurance, and then also in the provider of disaster aid.
    I just wanted to mention--in your question about impact on 
water supply, so GAO currently is doing an audit at the moment, 
looking at the resiliency of water infrastructure systems 
across the country. You mentioned how Houston was devastated by 
it, and how the--its own water infrastructure was affected.
    Ms. Jackson Lee. Yes.
    Mr. Gomez. So we are looking at ways in which some water 
systems are building resilience into their structures. So we 
hope to get that report out to you folks soon.
    Chairman Yarmuth. The gentlelady's time is expired.
    Ms. Jackson Lee. I thank the Chairman.
    Chairman Yarmuth. I now recognize the gentleman from Texas, 
Mr. Crenshaw, for five minutes.
    Mr. Crenshaw. Thank you, Mr. Chairman. My generation cares 
a lot about climate change and a clean environment. And so I, 
too, care about it. And we have a vested interest in developing 
cleaner energy and ensuring that the air we breathe is clean. 
No one would dispute that, despite the highly dishonest claims 
about denialism from the other side. That kind of language is 
meant to divide and cause resentment.
    But I also have an interest in getting to the truth of the 
problem, the actual cost we can expect, and the most 
reasonable, efficient, and plausible solutions. This is where 
our true--our two sides differ, fundamentally.
    The narrative on the left is that catastrophe is looming, 
and that no cost is too high. Well, of course, this isn't true. 
Costs do matter. Proper estimates of our ability to adapt to 
climate change matters. Common-sense analysis of the problem 
does matter. A true cost-benefit analysis free from political 
bias does, in fact, matter.
    So let's do away with some of the most absurd claims right 
away. For instance, that climate change will cause not just 
heat-related deaths in massive numbers, but hundreds of 
thousands more murders and sexual assaults. That is what was 
testified earlier. Is this a serious claim? No, it isn't. Of 
course it isn't. You make such a claim if your goal is to 
torpedo good discussions right off the bat. Oren Cass, here 
testifying today, has already done an excellent job debunking 
the bad and, frankly, highly dishonest economic modeling used 
to come up with those absurd numbers, so I won't dwell on that.
    I do want to dwell on real solutions, not insane, Green New 
Deal solutions based on a false premise. Not a Paris Climate 
Agreement, which foolishly undermines the most innovative 
economy in the world, the United States, while freeing up China 
and India to continue pumping out emissions, or any other 
ridiculous solutions that rely solely on solar and wind. These 
are feel-good solutions. They are based on flowery notions of 
vision and purpose, as opposed to serious policy ideas.
    Serious policy ideas will take advantage of the greatest 
innovation machine the world has ever known, the U.S. economy. 
And we should be focused on providing the world with cheap, 
clean energy that can thrive in the marketplace.
    The U.S. is responsible for around 15 percent of global 
emissions. That is what a Green New Deal would address, 15 
percent. For an enormous $93 trillion price tag you address 
just a fraction of the problem. We should be addressing 100 
percent of the problem. And the only way to do that is to 
export our expertise.
    In Houston we have a privately-backed investment, like the 
net power plant. It is in La Porte, right outside my district. 
This plant burns natural gas to generate electricity, which is 
already cleaner than most fossil fuels, and is readily 
available in the Permian Basin, just two hours away from Texas 
Tech. The thing is, this natural gas plant has zero emissions. 
It captures the carbon it emits, and recycles it into the power 
plant. No emissions. And it is self-sustaining.
    Natural gas fracking has had an enormous impact already, 
reducing our emissions greatly. What if we did a better job 
exporting clean, natural gas to dirty coal-burning countries 
like China and India?
    Well, we can answer that. The Department of Energy 
estimates that the promise of natural gas plus carbon capture 
is so great that if China and India switched just their coal-
burning boilers to natural gas, they would reduce emissions by 
43 percent. Adding full-scale turnover to natural gas and 
carbon capture, and you are looking at an 88 percent reduction 
in carbon emissions. More natural gas exports, carbon capture 
technology, modular nuclear reactors, research on nuclear 
fusion: these are the future. They work. And they can make our 
air cleaner, keep growing our economy, and provide sustainable 
energy for our growing global needs.
    We must also invest in adaptation, as human beings have 
been doing for thousands of years. There is a reason that 
climate-related deaths have dropped drastically over the last 
100 years, by around 90 percent, even though our population has 
increased by orders of magnitude.
    We must have realistic projections of the cost of climate 
change, followed by realistic solutions. That is the way 
forward.
    My time for a question--Ms. Hayhoe, if I may give you one 
question, there is a lot of estimates on the cost. But what I 
never hear, and what I think the right question to ask is, if 
we implemented the most extreme solutions--let's just assume 
the Green New Deal. Let's assume 0 emissions in 10 years coming 
out of the United States. What would be the effect on the 
global--what would be the global effect of that? What would be 
the temperature effect? What would be the effects after that? 
Do we measure those things?
    Dr. Hayhoe. First of all, if you look at cumulative 
emissions, which is what climate does respond to, the U.S. is 
responsible for just under 30 percent of those.
    If the U.S. eliminated its emissions, it would actually 
have an impact beyond its current 15 percent because, as you 
pointed out, that technology would percolate around the world, 
and that leadership would have a huge impact in places that are 
emerging economies and developing----
    Mr. Crenshaw. What technology? What technology does the 
Green New Deal create?
    Chairman Yarmuth. The gentleman's time has expired. Thank 
you.
    I now recognize the gentleman from Nevada, Mr. Horsford, 
for five minutes.
    Mr. Horsford. Thank you very much, Mr. Chairman. One of the 
areas that really hasn't been explored today is the impact of 
climate change on the poor and marginalized communities. And, 
you know, with all due respect to those who want to focus on 
one proposal, I would like to focus on the people who are 
actually impacted.
    Extreme heat conditions and increases in air pollutants 
negatively impact the health of my constituents, increasing 
cardio-vascular and respiratory illnesses. And, even more 
alarmingly, sometimes leading to premature death. Further, 
these incidences of illness are having a devastating impact on 
people's quality of life, to live a healthy life, to be able to 
raise their family, and to work.
    In my home state of Nevada, a desert state, it is 
particularly vulnerable to the changing climate. In Nevada we 
face droughts, particularly impacting Lake Mead, which supplies 
water to roughly 25 million people across Nevada, California, 
and Arizona. Forty-six percent of Nevadans live in areas that 
face dangerous wildfires. And Nevadans face an increasing 
number of heat waves. By 2050 it is projected that the City of 
Las Vegas will experience 106 days per year with temperatures 
upwards of 105 degrees Fahrenheit. In fact, if you open the 
newspaper today, we are experiencing a severe heat wave, with 
temperatures over 105 degrees through Thursday.
    The consequences of climate change disproportionately 
affect pregnant women, children, the elderly and disabled, 
minorities, and poor communities.
    So Dr. Hsiang and Dr. Hayhoe, what evidence is there 
confirming that climate change will have more severe impacts on 
low-income and other vulnerable and marginalized populations?
    Dr. Hayhoe. The best description I have heard of climate 
change is that coined by the U.S. military, which calls it a 
threat multiplier. It takes issues like poverty, illness, lack 
of access to clean water, economic hardship, and it exacerbates 
them in very specific ways.
    Dr. Hsiang. We are now able to measure these types of 
inequality that you are describing. For example, you can take a 
wealthy family and a poor family, and have them try to 
experience the exact same heat wave. And because the wealthy 
family has more resources to cope with it--maybe they can go to 
the movies to stay cool, or do something else--the poor family 
is then struggling, and often substituting away from other 
types of things that they would need to spend on. They might 
take money out of their clothing budget, or their food budget 
to try and cope with some sort of disaster.
    So there is mounting evidence that climate change and the 
events that come along with climate change will actually widen 
the existing inequality across the country today.
    Mr. Horsford. And you talked about inequality, as far as 
health and quality of life. What about income inequality, and 
how climate change is impacting people in the United States?
    Dr. Hsiang. That is a very good question. For example, we 
often see that lower-income households are participating in 
industries where they are exposed to outdoor temperatures for 
long periods of the day. So people working in agriculture, 
people working hard in construction, those individuals are the 
most heavily impacted, in terms of their ability to work and 
their living for their families, when exposed to increasingly 
adverse outdoor conditions.
    Mr. Horsford. So you touched on agriculture and 
construction, which are two major industries in Nevada.
    Also leisure and hospitality, which is the largest economic 
sector in Nevada, accounting for 27 percent of our workforce. 
So can you elaborate further on how more extreme temperatures 
will cause lost working hours for outdoor laborers, 
particularly those working in these industries, and how they 
are impacted?
    Dr. Hsiang. Absolutely. We have numerous studies using 
government data on how much work people are able to supply, how 
many hours people are allowed to work and earn their wages. And 
we find that people, when the temperatures start exceeding, you 
know, 80 degrees, temperatures regularly experienced in Nevada, 
we see that people start being able to work less. And the time 
that they are working, they are less productive. So their 
employer is also getting less bang for their buck, in terms of 
paying these workers.
    Mr. Horsford. Thank you, Mr. Chairman. Again, I appreciate 
you holding this hearing on the devastating impacts that 
climate change is causing to individuals. But I think 
particularly those who are in marginalized communities and from 
poor communities deserve to have a voice in this process. And 
we need to have a policy that works for them, as well.
    Thank you, and I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
yield five minutes to the gentleman from Tennessee, Mr. 
Burchett.
    Mr. Burchett. Thank you, Mr. Chairman and Ranking Member. I 
have only been here about, I guess, less than 120 days. So I 
haven't been here long enough to be bitter towards anybody. So 
I will--my comments will be--I am sure, if you check back with 
me after 200 days, then I might have changed my position.
    So--and I appreciate all these young folks here, and I want 
to encourage you all. Because what ends up happening, in my 
100-plus days of being here, is, you know, one side points the 
finger at the other, and the other one does the other, and then 
we all go out and issue a press release, and we tell our folks 
back home, ``Look what we are doing,'' and nothing gets done. 
Nothing gets done.
    And I am a conservative. I have no--and like this young 
lady, I am--I try to be a Christian. I am on the forgiven end. 
And I appreciate you, because we all need to be good stewards. 
But I am also a capitalist.
    And I am--thought he was coming up to take the mike away 
from me.
    But you know, we talk about the Chinese and the Indians. 
The Chinese are putting 300 new coal plants online. That--you 
talk about pollution. And their safety controls are probably 
something that we would have not done in the 1970s. India, the 
Ganges River, their most sacred river, it is horribly, horribly 
polluted. Their landfills have been described as time bombs.
    And I want to encourage you young people--and I am a 
capitalist, as I stated, but I think capitalism plays a huge 
role in this.
    At one time I was the mayor of Knox County, and I used to 
read these statistics, and we generate about one tire per 
person per year. And if you can figure out what to do with 
those tires, young folks, Bill Gates will be calling you all 
for a loan, because it is--the devastating effect of those 
things that you just see every day, and it just kind of gets 
ingrained in you, and you don't pay it much attention.
    And I would encourage, as I have done since the 1970s, to 
compost. You always talk about what can we do? We are not going 
to do a dadgum thing up here. You all are going to have to do 
it. And you should do it in your own communities. You should 
compost, you should recycle. Make sure you get the ratio 20 to 
1, because if it goes the other way, you get that awful smell. 
Then you are putting some very noxious gases into the 
atmosphere, outside of just the carbon that you get in a 20-to-
1 ratio when you turn it.
    I think God has given us some great solutions, I just think 
we have turned our back on Him in more ways than one, and we 
are not looking at what is going on around us.
    And I do represent east Tennessee. And east Tennessee is 
home to Oak Ridge National Laboratory and the Tennessee Valley 
Authority. And I am wondering--and they both have a huge 
influence on our nuclear power--or nuclear power, as some 
people say.
    And I am wondering. Do--the question is to--I would like to 
ask every Member. Just a quick, short answer. Do you all 
support nuclear power? And where do you see improvements in it, 
possibly in the funding?
    Start here, and just go down the line, if that would be all 
right.
    Mr. Cass. Yes, I do. I think we need to fund more 
innovation on new reactor types, and we need to make sure it is 
eligible for any subsidies that other zero-carbon technologies 
are eligible for.
    Mr. Burchett. Right.
    Mr. Gomez. So at GAO we don't take a position, sir, on 
energy. But we do audits on any type of energy that Congress 
wants us to look at.
    Mr. Burchett. All right. Safe answer, thank you.
    Dr. Hsiang. We don't have a--I don't have a position on 
nuclear power, but I think careful economic analysis indicates 
that it is a decliningly--it is becoming increasingly 
expensive, and the rate of return on those investments to the 
ratepayers tends to be declining over time.
    Dr. Hayhoe. And, as a climate scientist, I am in favor of 
any form of energy that does not produce carbon, can be done 
safely, including both operations and disposal of waste, and 
can be done cost-effectively. And I think that is where the 
biggest improvements remain to be made in nuclear.
    But the small modular reactors that were mentioned 
previously are a positive step in that direction.
    Mr. Burchett. Thank you. And Oak Ridge National Laboratory 
is leading the way in that direction. And I look forward to 
them in the future.
    And Mr. Cass, where do you see the free market? See, there 
you go, we are out of energy already.
    [Laughter.]
    Mr. Burchett. Where do you see the free market having the 
biggest impact in the United States' energy markets?
    Mr. Cass. In terms of innovation and new technologies?
    Mr. Burchett. Yes, sir.
    Mr. Cass. Well, I think, at the end of the day, it is going 
to be private-sector innovators that are going to drive a 
tremendous amount of--somewhat on the research, certainly on 
the development and the deployment side.
    And so they need to face--they need both a good flow of 
research and new technologies coming toward them from the 
universities, and then they need to be facing a market where 
they will have a chance to enter and compete.
    Mr. Burchett. Thank you. And you young people, don't get 
bitter up here. You all get out and solve the problems, all 
right? Thank you all.
    I have become an old man. I am 54, and I am calling these 
folks young people, Mr. Chairman. I have become my father. But 
thank you.
    Chairman Yarmuth. The gentleman's time has expired. I now 
yield five minutes to the gentlelady from Minnesota, Ms. Omar.
    Ms. Omar. Thank you, Chairman.
    So Dr. Hsiang and Dr. Hayhoe, are you all offering 
flowering ideas in solving our climate crisis?
    Dr. Hayhoe. I am a climate scientist, and we are really 
good at diagnosing the problem, telling you what is happening, 
why it is happening, and how bad it is going to be. But we are 
not a one-stop shop. We need everyone. We need engineers, we 
need business people, we need innovators, we need creators. We 
need all of us, really, on board to fix this thing and to make 
sure that we end up in a better place in the future, not worse.
    Dr. Hsiang. I think the entire field of economics uniformly 
agrees that what we need is to somehow find a way to put a 
price on carbon. And, in fact, it is a market solution which is 
consistent with aligning everyone's incentives with increasing 
national and global welfare.
    And so, most of the research that we are being--that we are 
conducting at the Climate Impact Lab, and a huge amount of 
research at Berkeley, is trying to understand what is the 
appropriate price to put on carbon. And there is a variety of 
options. You can do cap and trade options, you can charge 
something at the pump. There is lots of ways to deal with it. 
And I think the moment you put a price on carbon, markets will 
respond instantly. Markets are very efficient, they know how to 
move resources around. It is a very effective strategy.
    Ms. Omar. In your testimony, Dr. Hsiang, you say that the 
estimate for the Hurricane Maria will set Puerto Rico back two 
decades of progress. What would be, like, the cost associated 
with trying to catch up that progress that could have been made 
for two decades?
    Dr. Hsiang. Just to be clear about what that statement was 
trying to say, what we see is, when communities are struck by 
hurricanes, they lose a lot of assets, things that they have 
spent a long time accumulating, things that are productive. 
Businesses close. And so, if you were to look at the trajectory 
of Puerto Rico over time, it was going this--it was increasing 
steadily, and then it gets hit by a storm. And what we expect 
is that it will never catch up.
    It is kind of like when you are riding your bicycle with 
your friends. If you slow down for a short period of time, you 
fall behind. And even if you get going at your original speed, 
you never catch up with your friends unless you pedal a lot 
faster for a while to catch up.
    And so, what we would need to do is we would actually need 
to gas the economy a lot. We would need to put in a lot of 
investments to sort of re-inflate all the things that were 
lost. And so right now we are not on track to do that.
    Ms. Omar. I mean, so we are not only talking about the 
costs associated with the loss of infrastructure. We are not 
only talking about the cost associated with the loss of 
business. We are also talking about the cost associated with 
the loss of the human life that would have been able to create 
that production, as well.
    Dr. Hsiang. Yes. A lot of the research out there indicates 
that, actually, the loss numbers that you see in the newspaper, 
in terms of damages from a hurricane, are roughly only one-
tenth of the actual economic loss. Most of the loss shows up as 
foregone earnings in future decades. But most people are not 
very good at keeping track of money they didn't earn, right?
    Ms. Omar. Yes.
    Dr. Hsiang. But what we see is that that is actually 10 
times the cost of the number that you read in the newspaper as 
the damage, which is really just accounting for sort of 
buildings and structures that have fallen down in a very short 
period of time.
    Ms. Omar. Yes. I mean so let me get back to what one of my 
colleagues earlier was trying to address so eloquently, from 
the point of view of what this means for poor communities.
    We know that there is a cost associated with the kind of 
crisis that is being created because of pollution. In my 
district, one zip code, 55411, has the highest asthma 
hospitalizations in the state. And these are communities that 
are mostly African-American. And, you know, we are talking 
about 230,000 asthma attacks in children, 188,000 missed school 
days and work days each year.
    There is cost associated with that, as you have pointed out 
in some of your research. It seems like we are investing and 
subsidizing the fossil fuel industry, and exasperating this 
problem. So there is a double cost to society. How do you 
propose we mitigate that?
    Dr. Hsiang. Again, as I said before, I think we need to put 
a price on carbon.
    Ms. Omar. I have a proposal to get rid of this welfare 
system to the fossil fuel industry. I think it is really 
important for us to take a stance and make sure that we are 
making investments in poor communities around our country.
    And in regards to composting, I also have a zero waste 
grant bill that will help communities get that going. And so I 
am hoping my colleague will help sponsor that so we can try to 
make sure that we are doing our part in having a sustainable 
environment. Thank you.
    Chairman Yarmuth. The gentlelady's time has expired. I now 
recognize the gentleman from Massachusetts, the Vice Chairman 
of the Committee, Mr. Moulton, for five minutes.
    Mr. Moulton. Thank you, Mr. Chairman. I was one of the 
first Members of Congress to sign on to the Green New Deal as a 
signal to what a priority it must be for America to lead the 
world in addressing climate change. But I also signed on when 
it was an empty framework. And I believe it is critical that 
the Green New Deal focus on three major goals.
    First, investing in carbon-free energy technologies and 
other green technologies to lead the world in de-carbonizing 
our country. Economically efficient policies like a carbon tax, 
will incentivize the private sector to help; massively 
increasing our deficit, as some colleagues of mine have 
proposed, will not help.
    Two, while America should set the pace for the developed 
world, the share of carbon output coming from the developing 
world increases every year. We, therefore, need to develop the 
distributive power technologies necessary to bring carbon-free 
power to rural communities around the globe.
    Three, we need to develop carbon capture technologies. 
Although some activists believe doing so gives us an excuse to 
keep polluting, the truth is that it is already too late to 
live without carbon capture, because of how much carbon we have 
already released into the atmosphere. Doing these things is the 
boldest way to stop climate change, and it will grow American 
jobs. The two should go hand in hand. We have already broken 
our climate; we don't need to break our economy to fix it.
    Now I would just like to ask a few questions of some 
Members of the panel, starting with Mr. Gomez.
    Mr. Gomez, what are the largest sources of carbon-free 
energy in the United States today?
    Mr. Gomez. Sure. So, according to the Energy Information 
Administration, last year, in terms of total energy 
consumption, 12 percent comes from renewables, and 8 percent 
comes from nuclear.
    Mr. Moulton. Great, thank you very much. Now, Mr. Gomez, 
with regards to national security, GAO declared the federal 
government's fiscal exposure to climate change as high-risk, 
and estimates the value of infrastructure owned and operated by 
the Defense Department worldwide to be about $1 trillion.
    In January Defense reported roughly two-thirds of mission-
critical installations are vulnerable to current or future 
climate impacts. What would be the cost of building new 
infrastructure, or moving facilities to preserve our national 
defense strategy?
    Mr. Gomez. That is a really good question. And I don't 
believe that GAO has estimated that cost yet. But as you said, 
there is a really large infrastructure with a high asset value.
    We focused on making recommendations to the Department to 
better prepare its facilities, to make sure that it is building 
in resilience, but also that it is incorporating climate change 
risks to its everyday planning that they do for their 
facilities, so they can be better prepared.
    Mr. Moulton. I can tell you, as a Marine veteran, that when 
I visit installations around the world, American military 
officials, American general officers, repeatedly advise us 
about the national security threat of climate change.
    Dr. Hsiang, the Intergovernmental Panel on Climate stated 
with high confidence that limiting global warming to 1.5 
degrees Celsius with no or limited overshoot would require 
rapid and far-reaching transitions in infrastructure, including 
transportation. To what degree are we currently making 
transportation investment decisions based on limiting climate 
change?
    Dr. Hsiang. That is primarily outside my expertise, but I 
would say, from what is visible, very limited progress in that 
regard.
    Mr. Moulton. I mean it is interesting to think about a 
country like France, where a high percentage of travel, 
relatively speaking, is done by high-speed rail running off of 
nuclear power plants. And so you essentially have a fast, 
modern--way faster than anything we have in the United States--
transportation system that is carbon-free.
    Mr. Cass, I want to give you a chance to chime in here, as 
well. Our President tweeted that, ``The concept of global 
warming was created by and for the Chinese in order to make 
U.S. manufacturing non-competitive.'' Mr. Cass, do you agree 
with the President's assessment?
    Mr. Cass. No.
    Mr. Moulton. So how is it that people are going to make 
rational decisions, if the President of the United States is 
providing completely irrational assessments like that?
    Mr. Cass. I think there are, unfortunately, a lot of 
counter-productive and irrational statements made by both 
people who refuse to accept what scientists are telling us 
about climate change, and those who wildly overstate the 
problem, in that, for instance, Bernie Sanders saying that----
    Mr. Moulton. So you would put President Trump in the 
category of people who refuse to accept the reality of climate 
change?
    Mr. Cass. I have not spoken with him about it. That is how 
I would characterize that tweet, certainly.
    Mr. Moulton. Great, thank you very much, Mr. Chairman, I 
yield back.
    Chairman Yarmuth. The gentleman yields back.
    So, Mr. Womack is not going to be coming to the Committee. 
He would normally question at this time. So, instead of that, 
and since the two of us are the only Members remaining, Mr. 
Woodall is going to be allocated five minutes to make a 
closing--closing remarks, and then I will conclude with my 
questions.
    Mr. Woodall. Because we do have such a learned panel here, 
is there anyone here who believes we should be setting climate 
policy based on anybody's last tweet that goes out the door?
    [Laughter.]
    Mr. Woodall. Is Twitter the best foundation for good 
climate policy that we have?
    I really am grateful that you all are here.
    I wanted to ask the audience that is behind you, though. 
You all are protected. You are in the circle of trust here on 
the Budget Committee, but also the camera is facing this way, 
instead of that way, so you will not be on the hook for 
anything that you do. But I just wanted to get a show of hands.
    We talked about the urgency of climate change. Who feels 
the urgency that is here today?
    All right. Let the record reflect that is a lot of hands, 
Mr. Chairman.
    Put those hands down. We have also talked a lot about 
nuclear today, most recently with the gentleman from Tennessee. 
How many folks think that part of our strategy going forward is 
going to include nuclear energy?
    All right. Fewer hands, but still a lot of hands.
    I was with one of my Democratic colleagues the other day, 
and she said, ``Rob, we are never going to do a big, public 
works project like the Hoover Dam again, because you 
Republicans just refuse to pay for it.''
    And I said to her, ``No, I am happy to pay for it, but you 
refuse to give me the permits to build it.''
    How many folks--we still have some hydro opportunities 
here, but we haven't built major hydro projects in a long time, 
because of environmental concerns. How many folks would say 
that expanded hydro is part of our pathway forward? I have got 
many, many fewer hands this time around.
    You all might not have seen all the urgency hands that went 
up, but I have a tough time in this business of compromise that 
is Washington, D.C. melding the urgency with the ``Oh, but we 
can't do it that way,'' and, ``No, that shouldn't be part of 
the solution.''
    Dr. Hsiang, you said your opposition to nuclear was that 
the economics weren't there as they should be, but you 
expressed great faith in the free market. If we move to a 
carbon tax, my concern is we don't take our thumb off the rest 
of the scale. We would continue to have laws that disadvantage 
hydro, we would continue to have laws that disadvantage 
nuclear. In your vision of a carbon tax that would immediately 
bring the market forces to bear to solve the problem, would you 
see a repeal of all of the other laws that put their thumbs on 
the scale of what the outcome of energy choice should be?
    Dr. Hsiang. I think whether or not we put a price on carbon 
is unrelated to whether or not we do or do not choose to change 
any other policies in the market.
    But just to clarify my earlier statement, I have no 
particular opposition or support for nuclear power. All I was 
stating is that the price has, relative to other energy 
sources, been rising. And so the investments seem to have a 
declining rate of return over time. That is all.
    Mr. Woodall. The--let me ask you, Mr. Gomez, because I know 
you can't talk policy, but you are absolutely right about 
federal exposure. I certainly think of that as something that 
would bring us together on both sides of the aisle.
    In fact, on the Budget Committee four years ago--four terms 
ago--we tried to begin budgeting for disaster, saying let's 
look back over the last three years of disasters and put that 
amount of money, the average, aside for next year. We do a 
terrible job of budgeting for disaster. Does your examination 
of that lead you to any conclusions why--again, it should be a 
shared value--we have struggled to better budget for tomorrow?
    Mr. Gomez. So--right. So we make recommendations to 
agencies, right, to improve and to get more information. So we 
have some recommendations outstanding exactly to that point.
    So we have recommended that the Office of Management and 
Budget, for example, in their funding reports that they provide 
to Congress, provide information to you all on those programs 
that face growing fiscal exposure. So then you can then make 
tradeoffs, as you look at the information, to see what to focus 
on, both in the short term and the long term.
    Mr. Woodall. There is not a single serious problem up here 
that I have seen solved without trust amongst folks. And 
sometimes I show up at hearings that erode that trust, and 
sometimes I show up at hearings--much more rarely--that build 
that trust.
    Going back to your closing statement, Mr. Cass, there are 
those things that are not helpful when folks ignore the world 
around us. And there are also those things that are not helpful 
when folks seek to scare the dickens out of us. I can go down a 
laundry list of public policy decisions that are--that can be 
framed in exactly that way.
    I just want to thank you all.
    I do believe, Mr. Chairman, while we have virtually zero 
jurisdiction in this space outside of what Mr. Gomez has come 
here to try to get us to focus on, I do not believe there will 
be another hearing on this topic that has as much opportunity 
to provide a pathway forward among folks who still continue to 
have substantial policy disagreements. And I thank you all for 
the role you play in that. I yield back.
    Chairman Yarmuth. I thank the gentleman. I now yield--Mr. 
Panetta sneaked in, so I now yield five minutes to the 
gentleman from California.
    Mr. Panetta. Thank you, Mr. Chairman, I appreciate that 
introduction and using the appropriate word of sneaked, rather 
than snuck. Thank you.
    Gentlemen, ma'am, good afternoon. Sorry I have not been 
here; I had some other obligations. But obviously, thank you 
for your presence here. And more importantly, thanks for your 
preparation to be here. I know it takes a lot. But obviously, 
with your expertise, I am sure it is a lot easier for you to be 
here than it would be for many of us in this room. So thank you 
very much.
    I am just going to kind of dive right into it.
    Dr. Hsiang, if you could--and I know in your testimony that 
I read you spoke about the substantial net-negative impacts of 
unmitigated climate change on the U.S. economy. I come from the 
central coast of California--Monterey, Big Sur, Santa Cruz, 
what I would contend is the most beautiful district in the 
nation. Others would disagree, but I would not. Especially if 
you have been there, you would understand.
    But could you elaborate on the economic costs of climate 
change on coastal homes and businesses, such as my community, 
and explain, if you can, what fraction of these costs will be 
attributed to physical damages versus the loss of economic 
opportunity? Please.
    Dr. Hsiang. There are a variety of costs associated with 
coastal communities. Sea level rise is clearly one of them. And 
sea level rise is one of these costs where it is very difficult 
for us to constrain the amount of uncertainty. So there was a 
very recent study coming out suggesting that it is possible--
there is roughly a 10 percent chance of getting some very rapid 
rises in sea level over the next coming decades. And it is hard 
to rule those out.
    So that is a case where you are really thinking about how 
you want to manage risk. Do we want to do something that has a 
small risk of something very bad happening, or are we willing 
to invest to avoid that possibility?
    In addition to having higher sea levels, as storms come 
in--so particularly on the East Coast, less of a problem for 
California--each storm that comes in pushes a wall of water 
ahead of it that is the surge in front of a hurricane that then 
floods homes and does a huge amount of damage. As the sea level 
rises, and then those storms intensify, those surges become 
larger and more difficult to manage.
    We will probably adapt to those storms by investing in 
fortifying our coastlines. So actually, the United States is 
one of the worst-performing countries at our income level in 
terms of managing storm risk. If you look at a country like 
Japan, they actually suffer much lower mortality rates in their 
storms. But part of the reason is because they have an 
essentially fortified coastline. It is not as an enjoyable 
place to live if everything is covered with concrete sea walls.
    Mr. Panetta. Right.
    Dr. Hsiang. So those are some of the types of compromises 
people living on the coast will have to make in the coming 
years, if the previous trends of emissions continue.
    Mr. Panetta. And that type of fortification, I mean, you 
can't really apply that across the board, though. That is the 
thing. I mean there is obviously, you know, geographical 
limitations. And I can tell you, in my district there would 
probably be a lot of political limitations about obstructing a 
seawall along a scenic drive in Carmel, California.
    But, you know, what--you know, in regards to that type of 
fortification, I mean, where do you see that being 
appropriately done?
    Dr. Hsiang. That is a very open field of research. There 
are a lot of individuals trying to understand what would be the 
types of cost-effective adaptations that the government or 
local communities ought to deploy, and a fair amount of it is 
going to be individuals actually investing their own private 
resources in trying to protect their own home.
    But, of course, in the case of something like a seawall, if 
I build one in front of my home, and my next-door neighbor 
chooses to not invest quite as much money in theirs, then I am 
now subject to risk based on their choices.
    Mr. Panetta. Right.
    Dr. Hsiang. And so this is going to create a situation in 
which we now have to negotiate over these types of adaptations. 
We are going to spend money on those negotiations. We are going 
to spend our, like, sort of our patience with one another on 
those types of conversations, instead of focusing on how to 
make the schools better, instead of focusing on other things 
that we like to invest in, as a community.
    Mr. Panetta. And let's say--you know, obviously, you 
mentioned private investment. What are we talking in public 
investment? How much is the government--and Mr. Gomez might 
have a answer for this.
    How much of these types of costs are going to be undertaken 
by the U.S. Government when it comes to this type of 
fortification?
    Mr. Gomez. Sure. So in the area of coastal property 
damages, you know, we--again, our role is to provide Congress 
with information in terms of where those exposures are.
    And currently, in the federal government, it is through the 
National Flood Insurance Program. I mean that is a program that 
owes the Treasury $21 billion, currently. And the program was 
never really set up to take care of all the expenses and 
losses. We have made recommendations that Congress should also 
make structural changes in that program, so that it can send 
clear signals to the folks that are buying insurance. That is 
just one example.
    I also wanted to mention--because earlier we were talking 
about communities that are at risk. And one set of communities 
that we haven't talked about where we see the impacts already 
taking place, and that is Alaska Native communities. They live 
on the coast and on rivers. So GAO has a body of work, we have 
looked at those communities, looked at what federal programs 
are available to help them retreat, but to help them adapt to 
those changes.
    Mr. Panetta. My time has expired. Thank you again for being 
here.
    Thank you, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time has expired. And I 
will mention for the record that the Pebble Beach Golf Course, 
where the U.S. Open is being held this week, actually fortified 
the 18th fairway, because of the sea, as well. You know where 
my head is at this week.
    So I now yield myself 10 minutes. I want to follow up on 
what my good friend, Mr. Woodall, was talking about, because 
the reason that we wanted to do this hearing was because we 
have--we believe that there are things that we need to look 
forward at, and anticipate what policy consequences might ensue 
from an analysis of what the costs of certain things are--
climate change certainly being an important one.
    We are going to have a hearing on immigration policy, as 
well, as to what the financial impact--what the consequences 
for the taxpayer will be, moving forward.
    We are going to have a hearing at some point on artificial 
intelligence, and what that is going to mean for the budget and 
the taxpayers, because I think it is going to be the most 
disruptive force in--probably in the history of the world, 
moving forward.
    And the idea behind these hearings is not really to 
convince anybody of any policy preference or any philosophical 
argument. It is just to get information.
    And unfortunately, I think what you see sometimes--I saw it 
today on both sides--is that there is less of a governing 
mentality in Washington than there is in electoral mentality. 
And regardless of what the issue is, there is always an attempt 
to figure out where the electoral advantage lies, or the PR 
advantage might lie, as opposed to where we can search for an 
appropriate governing strategy in that particular area. And I 
know Mr. Woodall is very much committed to that, as am I. And I 
hope we can influence our colleagues in that direction.
    On the subject of the future, I--there was a representative 
of Microsoft in my district last week. She is the chief 
technology officer of Microsoft. And she was there because they 
are entering into a partnership with our community in terms of 
developing it higher--a better tech community, and getting more 
tech jobs. She made a statement which I found absolutely 
astounding. She said that, in the next 10 years, we will 
experience 250 years of change. Think about that, that in the 
next 10 years we will experience as much change as we have 
experienced since the founding of the country.
    And so, when I think of the opportunity for technology to 
develop to help us both adapt and to mitigate climate change, I 
am reassured by those--that projection, even though I am sure 
there is a plus or minus 150 years in that assessment. But this 
leads to a question I have of Dr. Hayhoe.
    You talked about loading the dice. And essentially, that is 
what we are doing right now, is rolling the dice, because you 
have got different assessments; Dr. Cass, you have different 
assessments where the impact may be. And we know there is a 
considerable amount of variation as to what that might be.
    But the costs of being wrong are pretty dramatic. Is that 
the point you were trying to make?
    Dr. Hayhoe. Yes. The world is changing very quickly. And 
our civilization is built on the assumption of a stable 
climate. Our agriculture, our water, the allocation of our 
energy resources, even our economics and our international 
policies are all built on the assumption that climate is 
stable, as it has been over the history of human civilization.
    Today it is changing faster than that. And the best analogy 
I have is actually from west Texas. So it is very flat there, 
and we have a lot of dead, straight roads. And you can get down 
the road staying in your own lane, looking in the rearview 
mirror, because where you were five minutes ago is a perfect 
predictor of the future. But when you hit a curve, you have to 
take your eyes off the rearview mirror, and you have to look 
ahead, because if we do not do that we will not make it around 
the curve safely. And we are facing and are already on the 
largest curve we have experienced, climatically speaking, in 
the history of human civilization, and our wheels are already 
on the rumble strip.
    Chairman Yarmuth. I appreciate the metaphor.
    Dr. Hsiang, I know Mr. Crenshaw asked you a question, and 
it was a rhetorical one, because he didn't want you to answer, 
but I would like you to elaborate on this question of the 
health impacts, whether it is mental health or otherwise. How 
exactly--just walk that--walk through us why there would be 
more suicides, why there would be damage to fetuses, why the 
crime rate would go up as a result of these climate changes?
    Dr. Hsiang. Thank you. Thank you for giving me the chance 
to revisit this issue.
    There is a variety of ways in which environmental 
conditions affect human health. We all know that we get less 
comfortable when it is hot. And part of that is because our 
body is actually experiencing difficulty functioning at higher 
temperatures, and it is actually making you uncomfortable, 
trying to incentivize you to go somewhere safer.
    We see, for example, on extremely hot days, increases in 
cardio-vascular mortality rates, largely due to people trying 
to--their hearts have to work harder to move more blood to the 
surface of your skin to cool your body down. This is a very 
serious issue, and there are different discussions about how 
much we have adapted to this in the past. In fact, a lot of the 
numbers that were discussed earlier were completely consistent 
with the rates of mortality we see on hot days in U.S. counties 
right now, today.
    There is other types of vector-borne disease. There is 
projections about mosquitos traveling much further north and 
surviving for much longer periods of time, as temperatures 
warm. And, in particular, humidity rises. So our projections 
indicate that humidity in, you know, the Northeast, in New 
England in the future, in the next 80 years, could easily feel 
like humidity in Louisiana today. Okay? That is a completely 
different world, from a human health standpoint.
    When you think about fetuses, what we have observed using 
Census data--my colleague, Reed Walker, has done some 
fascinating research, where you actually see--if a pregnant 
mother is exposed to a very hot day, we actually can see that 
by tracing that child over time in their earnings 30 years 
later. So a child born the year before on the exact same day, 
or the year after on the exact same day, but when they were 
not--their mother was not exposed to a heat wave, they are 
actually earning more for multiple decades into the future. 
Now, we don't know exactly what the mechanism is. But what 
people think is happening is that the stress of the mother is 
affecting the development of the child that she is carrying.
    The last question you are asking is about mental health and 
crime. And this is actually--you know, calling it ridiculous is 
something that I can understand when you first hear these 
facts. But actually, in law enforcement, for example, it is 
well known and understood that on extremely hot days violent 
rates go up. And so police departments everywhere actually 
adapt today by deploying more police forces to cope with this 
very human response.
    Now, we don't know exactly what is happening, and why 
people change their behavior. But it is, in my experience, 
for--looking at this type of data for over a decade, one of 
perhaps the single-most robust statistical facts. Anyone in the 
world can look at their data. You can look at any state, any 
city, and you see that, as the temperatures rise, levels of 
interpersonal violence go up.
    And now, in our latest study over the last year, we showed 
that people perpetrating violence against themselves. Self-harm 
and suicide rates are incredibly responsive to temperature. In 
fact, you can look almost anywhere in the world and see this 
relationship. We don't understand exactly why it occurs, but it 
is the type of thing that is not going away, as air 
conditioning is deployed across the country. We actually see 
that this relationship is getting tighter and stronger over 
time. And in fact, it is occurring most strongly in the 
wealthiest communities in the United States.
    Chairman Yarmuth. Thank you.
    Mr. Gomez, I think Mr. Panetta asked about budgeting, the 
issue of budgeting at federal agencies for costs of disasters. 
Is that a good idea? And how would you do it?
    Mr. Gomez. So again, I think I mentioned earlier that one 
way is to provide you all with information that you can use, 
that gives you information on those programs across the federal 
government that are exposed to a high fiscal exposure, so that 
you can make those trade-offs.
    And so--but one other thing that I wanted to mention that 
is really important, from a federal perspective, and actually 
that affects all levels of government and the private sector, 
and that is that we have recommended in the past that we create 
a climate information system that provides authoritative 
climate information that then--that has information on 
observations and projections that can be updated on a regular 
basis. And then to have a non-government entity be able to 
translate that information for all users, for local government, 
state government, private-sector folks.
    As you know, we spend, from a budget perspective--we give 
billions of dollars a year around the country to build 
infrastructure. And it is those local folks, decision-makers, 
state decision-makers, that are having to plan and construct 
these things. And they are telling us that they need better 
information, forward-looking climate information, so they can 
build these things with resilience.
    So I think, from a budget perspective, that is where we can 
save money in the long run.
    Chairman Yarmuth. Well, I thank you for your answer. I 
thank all four of you for your testimony and your responses. I 
think it has been a fascinating hearing. And I appreciate your 
participation very much, and your work.
    And with that, with no objection, the meeting is--the 
hearing is adjourned.
    [Whereupon, at 12:25 p.m., the Committee was adjourned.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
